<html>
<title> - BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-151]

                                HEARING

                                   ON
,
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

              BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD

                             APRIL 17, 2008

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
44-316                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
DAVID LOEBSACK, Iowa                 MIKE ROGERS, Alabama
NIKI TSONGAS, Massachusetts
                 Frank Rose, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, April 17, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request for Missile Defense Programs.     1

Appendix:

Thursday, April 17, 2008.........................................    37
                              ----------                              

                        THURSDAY, APRIL 17, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     3
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Campbell, Lt. Gen. Kevin T., USA, Commanding General, U.S. Army 
  Space and Missile Defense Command/Army Forces Strategic Command 
  and Joint Functional Component Command for Integrated Missile 
  Defense........................................................     8
McQueary, Dr. Charles E., Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................     6
Obering, Lt. Gen. Henry A., III, USAF, Director, Missile Defense 
  Agency.........................................................     7
Young, Hon. John J., Jr., Under Secretary of Defense for 
  Acquisition, Technology, and Logistics, Department of Defense..     5

                                APPENDIX

Prepared Statements:

    Campbell, Lt. Gen. Kevin T...................................    91
    McQueary, Dr. Charles E......................................    49
    Obering, Lt. Gen. Henry A., III..............................    57
    Young, Hon. John J., Jr......................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Reyes....................................................   129
    Ms. Tauscher.................................................   111


FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Thursday, April 17, 2008.
    The subcommittee met, pursuant to call, at 1:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen O. 
Tauscher (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. The committee will come to order.
    The Strategic Forces Subcommittee meets this afternoon to 
receive testimony on the fiscal year (FY) 2009 budget request 
for missile defense programs.
    Our witnesses today include the Honorable John Young, the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics (AT&L); the Honorable James McQueary, the Pentagon 
Director of Operational Test and Evaluation (DOT&E); Lieutenant 
General Henry Obering, the Director of the Missile Defense 
Agency (MDA); and Lieutenant General Kevin Campbell, the 
Commanding General, Joint Functional Component Command (JFCC) 
for Integrated Missile Defense.
    Gentlemen, thank you very much for your service, and I 
thank you for being here today.
    General Obering, I understand that you will be departing as 
Director of the Missile Defense Agency this fall. Thank you 
very, very much for your service, and the committee wishes you 
the best of luck in your future pursuits.
    Mr. Franks. Hear, hear.
    Ms. Tauscher. This hearing gives us a chance to touch on a 
number of key issues and questions.
    One of my greatest concerns is how to integrate the Missile 
Defense Agency into the normal defense planning process. Our 
Armed Services Committee voiced this concern last summer when 
the former Vice Chairman of the Joint Chiefs of Staff (JCS) 
released a memo that proposed moving MDA back under the 
oversight of the Joint Requirements Oversight Council, JROC, 
the senior Department of Defense (DOD) body responsible for 
validating military requirements.
    This was a clear signal that real concerns exist among 
senior military leadership about current departmental practices 
with regard to missile defense. To date, however, there has 
been no action on the Vice Chief's recommendations.
    Secretary Young, I understand the Department established a 
new body last year, the Missile Defense Executive Board, or 
MDEB, to ensure that MDA's plans are better integrated with DOD 
efforts. As the Chair of MDEB, I am interested in hearing from 
you about the activities of the board and specifically how MDEB 
is addressing the concerns raised by JROC last year.
    I continue to believe that we should focus greater 
attention on countering short- and medium-range missile 
threats. I was disturbed earlier this year when MDA revealed 
their fiscal year 2009 budget request, that it planned to delay 
deployment of the Terminal High Altitude Area Defense (THAAD) 
Fire Units 3 and 4 for supposedly budgetary reasons. I, and 
other members of the subcommittee, including Mr. Reyes, thought 
this was a bad idea and raised our concerns with senior DOD 
officials. The Department has since reversed course and put 
THAAD Fire Units 3 and 4 back in their original schedule.
    I welcome this decision, but I continue to worry that 
resources within MDA are not properly focused on countering 
short- and medium-range threats. The 2007 Joint Capabilities 
Mix Study II (JCM II), sponsored by U.S. Strategic Command 
(USSTRATCOM), concluded that combatant commanders require, at a 
minimum, twice as many Standard Missile-3 (SM-3) and THAAD 
interceptors than are currently planned. Over the next 5 years, 
DOD plans to spend over $46 billion on missile defense. Given 
this large investment, I believe the Department has ample 
resources to ensure that our combatant commanders have a 
sufficient interceptor inventory to meet their minimum 
warfighting requirements.
    In the area of missile defense testing, MDA had some 
significant results last year, including a successful intercept 
with the Ground-based Midcourse Defense (GMD) system and 
several successful THAAD and Aegis Ballistic Missile Defense 
(BMD) intercept tests. As an advocate of rigorous testing, I 
congratulate the teams who engineered these successes.
    I also understand the lack of affordable and reliable 
targets is slowing down MDA's overall testing program. 
Secretary Young and General Obering, I believe the Department 
and MDA must place a higher priority on fixing MDA's targets 
program, and today I would like to hear your plans for doing 
that.
    We also need to improve testing of the Ground-based 
Midcourse Defense, or GMD, system. For the second year in a 
row, the Director of Operational Testing and Evaluation has 
said, and I quote, ``GMD flight testing to date is not 
sufficient to provide a high level of statistical confidence in 
its limited capabilities.''
    Dr. McQueary, it is critical that this subcommittee hear 
your thoughts on what needs to be done from a testing 
perspective to improve our confidence in the GMD system.
    Finally, let me say a few brief words regarding the 
proposed missile defense sites in Poland and the Czech 
Republic. I welcome NATO's acknowledgement of the contribution 
that the long-range interceptor site could make to align 
security. Last year, I urged the Administration to work to this 
end. I was initially told by Administration officials that it 
was too hard to get NATO onboard. So I am encouraged to see 
that the Administration changed course and made cooperation 
with NATO a cornerstone of its missile defense proposal.
    I believe NATO and the United States must do more to 
address existing short- and medium-range threats to Europe's 
Southern flank. I would like to hear the Department's plans in 
this area.
    With that, I would like to thank the witnesses once more 
for your testimony here today, and I look forward to hearing 
it.
    We are about to have votes in the next half-hour. We would 
have two votes that would take approximately a half-hour. What 
we would like to do is go to my great friend and Ranking 
Member, Mr. Everett, for any comments he may have and then try 
to move to your testimony. And if you can limit it the best you 
can, and then we can take the votes.
    That is a 15-minute bell. That means we go in in 15 
minutes, so we have probably at least 25 minutes before we 
would have to leave.
    So, Mr. Everett, as Ranking Member, I am very happy to turn 
the floor over to you. And thank you so much, sir, for your 
cooperation and service.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. I thank the chairman.
    And I also welcome our witnesses here today. Each of you 
have served our Nation with great distinction, and I thank you 
for the service.
    Mr. Young, welcome on your first appearance before the 
subcommittee.
    Dr. McQueary and Lieutenant General Campbell, welcome back.
    Lastly, Lieutenant General Obering, this may be your last 
appearance before this subcommittee. Thank you for your strong 
leadership, and congratulations on your retirement. Maybe you 
can join me down home in sweet LA, lower Alabama.
    As we begin our discussion on our Nation's missile defense 
posture and budget requests, I want to note the tremendous 
progress that the Administration has made since 2002. In six 
short years, a real missile defense shield has been developed, 
tested, and fielded to protect the American people and our 
deployed forces.
    Back in July 2006, when North Korea test fired seven 
missiles, we had a limited operational capability to turn to. 
By the end of 2008, our Nation will have 30 ground-based 
interceptors (GBIs), 18 Aegis missile defense ships, 13 Patriot 
platoons, 5 radar tracking systems, and THAAD introduction. 
When combined, these systems have a nearly 80 percent test 
successful record.
    This year's budget request increases the robustness of 
these defenses and extends them to our allies.
    On that note, I wish to commend our chairman. She is a 
leader in Congress on missile defense who works diligently in 
the public and behind the scenes. In the past year, she has led 
a bipartisan delegation to Europe and Asia to discuss missile 
defense cooperation with our key allies.
    Most notably has been her emphasis in working closely with 
NATO. The results speak for themselves. Earlier this month, 
NATO heads of state released a strong statement of support for 
missile defense and a U.S.-European proposal. In a few weeks, 
we anticipate the Czech Republic and U.S. to sign a missile 
defense agreement.
    The threat has not diminished. Yesterday, this subcommittee 
received a classified briefing on ballistic missile threats. 
The bottom line is that short-, medium-, and long-range threats 
continue to grow, and missile proliferation is a real concern 
to the intelligence community (IC). Now is not the time to slow 
down the development and fielding of missile defense elements 
critical to our Nation's defense.
    I would like to highlight a few areas that I am interested 
in hearing about today.
    Under Secretary Young, what are your thoughts on the 
missile defense portfolio reflected in the budget request? Are 
we meeting combatant commanders' requirements? Are we striking 
the right balance between near-term capabilities and posturing 
a position out there for the future? Can you also provide your 
views on how the Department manages the transition and transfer 
of missile defense assets from MDA to the services?
    General Campbell, last year you testified that we needed 
double the quantities of THAAD and SM-3 interceptors. Is that 
still the case? Do you plan to look to warfighter needs for 
other missile defense systems?
    Both the chairman and I share a concern about missile 
defense, force structure, and inventory requirements, and how 
they are identified, and how they are reflected in the budget 
request.
    Doctor, I am interested in your assessment of the missile 
defense test program. Your annual report credits MDA for 
increasing the operational realism of their test. Also, as you 
examine Air Defense Artillery's (ADA) test plans for the next 
few years, what specific changes to these plans would you 
recommend, particularly in GMD?
    Like the chairman, I am also concerned about targets. I 
worry about the amount of risk being carried in the target 
program. And without sufficient funding, it is not requested in 
the budget, I do not want targets to be the pacing system for 
missile defense testing. How can Congress help?
    General Obering, I have made several comments here and 
would welcome your thoughts in these areas, including your 
assessments of MDA's test plans and target programs. 
Additionally, please provide us with an update on the Airborne 
Laser (ABL) and the Kinetic Energy Interceptor (KEI). Both 
programs have key tests planned for 2009. I am interested in 
your thoughts on what happens after those tests. Can you also 
update us on the MDA's various space programs?
    On a final note, I want to congratulate our witnesses and 
their home organizations and industry partners for their 
efforts in successfully intercepting a disabled National 
Reconnaissance Office (NRO) satellite in February. This was a 
challenging mission. You did the job well and safeguarded the 
public from potential harm.
    Gentlemen, thank you again for being with us today.
    Chairman, thank you, as always, for calling these important 
hearings. And thank you for your friendship and your work that 
you have yielded to this committee.
    I yield back my time.
    Ms. Tauscher. I thank the distinguished ranking member for 
his partnership and his hard work, and I am flattered by his 
recognition.
    Secretary Young, this is your first appearance before the 
subcommittee. We are very happy to see you. If you could 
summarize your testimony.
    Each of you has given us, by the way, very comprehensive 
testimony, well in time for us to review it before the meeting.
    So if you could summarize as best you can, Secretary Young. 
And the floor is yours.

   STATEMENT OF HON. JOHN J. YOUNG, JR., UNDER SECRETARY OF 
DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS, DEPARTMENT 
                           OF DEFENSE

    Secretary Young. Chairwoman Tauscher, Ranking Member 
Everett, members of the subcommittee, thank you for the 
opportunity to appear before you today. I will be very brief in 
order to move quickly to the panel's questions.
    As a member of the Senate staff, I reviewed the programs of 
the Missile Defense Agency. Then, as now, oversight and funding 
of missile defense programs was a concern of the Congress. I 
believe that the Defense Department can improve its oversight 
of these programs.
    Just before I became Under Secretary of Defense for 
Acquisition, Technology, and Logistics, Secretary England 
approved the creation of a Missile Defense Executive Board, or 
MDEB, as you noted. This board has met six times during my 
tenure. I intend to use this board to provide all stakeholders 
with visibility into Missile Defense Agency programs and a 
voice in the Agency's plan.
    I also expect to review the execution of missile defense 
programs, as required, while also continuing to conduct 
quarterly reviews. I believe these processes will ensure that 
there is appropriate, independent DOD oversight of missile 
defense programs.
    The board recently reviewed business management rules for 
the Missile Defense Agency. The rules seek to outline roles and 
procedures guiding program management, testing, and budgeting 
for missile defense programs. These business rules, combined 
with existing congressional direction, will guide the 
development of the Department's fiscal year 2010 budget for 
MDA.
    These discussions should not obscure our shared goal of 
delivering missile defense capability for the Nation. I believe 
that General Obering and the MDA team have made very good 
progress in this area. Recent successful testing has proven 
that MDA and our industry partners have met the daunting 
technical challenge of hitting missiles with missiles. MDA's 
coordination with the military services is critical to 
delivering fielded capability.
    And I can tell you, I believe these processes are also 
working well. Indeed, as the Navy Acquisition Executive, I 
worked with MDA to take the steps that transferred the USS Lake 
Erie to MDA--the ship that made the satellite shot--and to 
drive procurement of missiles for sea-based missile defense 
capability. The combatant commanders, services, and MDA must 
now all work together on delivering and deploying systems to 
achieve greater operational capability, while enhancing these 
systems to address evolution of the threat.
    I am grateful to the members of this committee for your 
support of the Defense Department's missile defense programs, 
and I look forward to your questions.
    [The prepared statement of Secretary Young can be found in 
the Appendix on page 41.]
    Ms. Tauscher. Thank you, Secretary Young.
    Dr. McQueary, welcome back.

  STATEMENT OF DR. CHARLES E. MCQUEARY, DIRECTOR, OPERATIONAL 
    TEST AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. McQueary. Thank you very much, Madam Chairman. I will 
be very brief.
    In my written report that I have already provided the 
committee, which you have touched upon, I mentioned five 
things: Provide my current assessment of the capability of the 
ballistic missile defense system (BMDS); second, I discuss the 
factor that limited my ability to be able to provide a thorough 
assessment, as required by the fiscal year 2006 National 
Defense Authorization Act (NDAA); third, I discuss the 
sufficiency and adequacy of the BMDS test evaluation program 
during the last year; and, fourth, I provide a review of the 
implementation of the DOT&E recommendations made to the Missile 
Defense Agency; and, finally, I describe how the Missile 
Defense Agency is a pathfinder in the implementation for the 
section 231 language in the fiscal year 2007 report.
    I will just touch upon the one that you specifically 
mentioned in your letter to me, if I may, and that deals 
specifically with the recommendations.
    In 2005, my organization made some 26 recommendations to 
MDA. Four of those recommendations are still open; the others 
have been closed. There were 15 new recommendations made in 
2006. And six of these recommendations still remain open, with 
the others being closed. And finally, there are five new 
recommendations made in 2007. These were all open at that time.
    And from this, I would conclude that we are seeing a 
reduction in recommendations, and I think that is one measure 
of the progress that is being made.
    So, with your permission, I will simply terminate my 
comments at that point. Thank you.
    [The prepared statement of Dr. McQueary can be found in the 
Appendix on page 49.]
    Ms. Tauscher. Thank you, Dr. McQueary.
    General Obering, once again, thank you very much for your 
service and to your family for their significant support of 
your hard work and sacrifice.
    And to the men and women that work with you and for you, 
the committee wants to extend their gracious thanks, too, for 
their hard work. We know that you are very much at the point of 
many very significant scientific and research and development 
(R&D) endeavors, and we want to congratulate all of those 
people for their hard work.
    And the floor is yours.

  STATEMENT OF LT. GEN. HENRY A. OBERING III, USAF, DIRECTOR, 
                     MISSILE DEFENSE AGENCY

    General Obering. Thank you very much, Madam Chairman.
    Good afternoon, as well, to the distinguished members of 
the committee and Congressman Everett, as well. I want to thank 
the committee for the tremendous support that we have received 
from you.
    As the Director of the Missile Defense Agency, as you 
pointed out, it is my role to do the development, testing and 
initial fielding of these capabilities.
    For 2009, we are requesting $9.3 billion. I want to point 
out that approximately 75 percent of that is for near-term 
capabilities, with the remainder budgeted for future 
capabilities that we think are prudent to be able to address an 
uncertain future.
    To lay the foundation for our budget request, I would like 
to point out, first of all, the criticality. There were over 
120 foreign missile launches last year around the world, non-
U.S. and non-Western missile launches. Two, in particular, the 
countries of North Korea and Iran, their activities continue to 
be very troubling in what we see as their pace of missile 
development and testing. And, of course, especially with Iran, 
it re-emphasizes why it is important that we achieve the long-
range defenses coupled with shorter-range NATO defenses in our 
European theater.
    But to give you a very, very brief and short background for 
the request, let me just say that 2007 was the best year we 
have ever had in missile defense. And it caps a lot of hard 
effort by thousands of men and women around the country. We 
have now employed more than about two dozen interceptors 
between Alaska and California. We have modified 17 ships, Aegis 
ships, 12 of which are capable of launching the sea-based 
interceptors, the remainder for the long-range tracking as 
well. We also have deployed 25 of the sea-based interceptors. 
And so we have gotten a tremendous leg up on the deployment of 
this capability.
    One other thing I want to point out, as you said, is our 
increasingly complex and realistic test program. With the 10 of 
10 successful intercepts in 2007, we are now up to a record of 
34 of 42 successful hit-to-kill intercepts since 2001. We have 
not had a major system failure in our flight test program now 
in over three years.
    And, of course, two things highlighted: One was the success 
of our allied partner Japan and their flight test off the coast 
of Hawaii in December, of which we and the Japanese are 
extremely proud. And while it was not a test of our missile 
defense capability by any stretch, we were able to modify our 
sea-based element to do the satellite shoot-down in February, 
with just six weeks notice to be able to accomplish that.
    Now, all that I have outlined, of course, is the foundation 
that we need to continue to build for the future. And I will 
address a lot of that in response to the Q&As, but I just 
wanted to re-emphasize the fact that I really believe that the 
authorities that have been given to the Missile Defense Agency 
over these past several years are why we were able to move this 
capability out so very quickly. The nontraditional defense 
acquisition approach that we have employed is at the 
foundation, and at the bottom of this capability.
    Some of the oversight boards that you mentioned, the 
Missile Defense Executive Board, for example, that was our 
idea, basically, to come up with this, to enhance the oversight 
by the Department, because we did believe that our maturity was 
getting to the point where we needed to be able to rapidly 
integrate with the other systems in the Department. And I 
believe that that was the reason why we proposed that, and the 
Deputy Secretary accepted that.
    But in closing, I just want to say thank you again for the 
great support. And I am looking forward to your questions.
    [The prepared statement of General Obering can be found in 
the Appendix on page 57.]
    Ms. Tauscher. Thank you very much, sir.
    I also see that General O'Reilly is behind you. We also 
want to congratulate him on his nomination to become the 
Director of MDA, and we are assuming that everything will sail 
through appropriately. Probably not the right analogy for an 
Army man, but you get my drift. And we want to acknowledge your 
leadership too, General O'Reilly.
    General Campbell, thank you, and welcome back. We also want 
to thank you for the great service of the men and women in your 
command and hope that you will pass that on to them. And your 
comprehensive testimony was very, very good to read. If you 
could summarize, the floor is yours.

   STATEMENT OF LT. GEN. KEVIN T. CAMPBELL, USA, COMMANDING 
   GENERAL, U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/ARMY 
FORCES STRATEGIC COMMAND AND JOINT FUNCTIONAL COMPONENT COMMAND 
                 FOR INTEGRATED MISSILE DEFENSE

    General Campbell. Thank you, Madam Chairman, Congressman 
Everett, distinguished panel members. Thank you, and thank you 
on behalf of the men and women who operate the system. I am 
here as a user's advocate and representative.
    As that advocate, I can report to you that the warfighters' 
involvement in the development process is growing. I outlined 
the Warfighter Involvement Program to you last year during 
testimony. That continues to mature.
    Congressman Everett, to answer your question about seeking 
additional requirements from commanders for the future 
development of the system, we do that. That is part of our 
mission, day-in and day-out, to work with all of the commanders 
across the globe to determine what is needed next, near term 
and in the far term.
    As far as testing, the operators remain fully engaged in 
testing. We have operators that sit at the consoles. We develop 
test objectives. We are deeply involved with MDA when it comes 
to the testing program.
    The flight tests attract most of the attention, but there 
are ground tests behind those flight tests that we are deeply 
involved with, and we gain many insights into how to use that 
system. And I think we save a lot of money on the ground tests 
before we ever get to flight tests to correct problems that we 
find.
    The operational commanders clearly recognize the threat 
that we face today when it comes to the short-range and medium-
range missiles. We can't meet all of the combatant commanders' 
needs today, but we remain in close coordination with the 
Missile Defense Agency to ensure that the investment portfolio 
addresses the needs for the near term, as well as the mid to 
far term. I think that we must maintain a balanced investment 
portfolio to stay ahead of the threat.
    Although we understand the inventories of the short- and 
medium-range missiles are significant, we can't lose sight of 
the qualitative improvements nations are making in their 
ballistic missile capability. Our investments for both the near 
and mid term must be informed by those qualitative investments.
    Madam Chairman, fellow panel members, thank you again for 
the opportunity. I look forward to your questions.
    [The prepared statement of General Campbell can be found in 
the Appendix on page 91.]
    Ms. Tauscher. Thank you very much, General Campbell.
    Secretary Young, I understand that there are a number of 
factors contributing to the August 2007 memo by Admiral 
Giambastiani that I mentioned in my opening statement. These 
factors included a need to provide the JROC with a louder voice 
in validating missile defense requirements, ensuring that MDA's 
activities are fully integrated with overall DOD air and 
missile defense efforts, and provide the military services a 
proper voice in planning and programming for the transition and 
transfer of capabilities from MDA to the services.
    Do you believe that the concerns raised by the JROC were 
legitimate? First question.
    Second, you talked a little bit in your comments about the 
MDEB, and you have had six meetings, and that you are moving 
forward on these business plans, best business practices, I 
would assume part of it. So you have a plan to address what 
these concerns were.
    What are the metrics you are going to have in place to 
determine the effectiveness of the MDEB? And what kind of 
transparency can we have on that?
    Secretary Young. I think the metrics will be the degree of 
support for the MDEB members, who are very senior 
representatives of the services, and their sense that we go 
through the programs, agree that the current state of execution 
of the programs is good, reach agreement with MDA on a proper 
recommendation for the fiscal year 2010 that will address, I 
think, some of the issues you raise, in terms of Joint 
Capability Mix Study, and can recommend that to the Department 
as a whole, and complete and reasonably prioritized package of 
recommendations and budget.
    So, you know, those are not less measurable--you know, it 
is not cost and schedule performance, although I would agree 
that those are metrics I intend to look at in MDEB for an 
individual program. So I want to look at a detailed level and 
status of program execution at a higher level. We need to build 
a quality budget that we can defend very well for you. Those 
are some top-tier metrics.
    Ms. Tauscher. General Obering mentioned that, from his side 
of it, he was pushing to have a body like MDEB created. JROC 
was pulling from their side to have a body like MDEB created. 
So, now we have MDEB.
    Do you think that MDEB is the final product of what we need 
to have all of these different pieces put together? Have you 
nailed it on the first try?
    I guess our concern is that we were pushing too, from our 
own side, saying, ``Let's have something.'' But we don't have 
transparency to MDEB, technically. Obviously, we have you 
sitting in front of us right now. I am concerned that we do not 
have that kind of transparency, that we do not understand how 
things are going. How do we measure that in the six meetings 
that you have had?
    So you, if you could just give us a little bit more, kind 
of sense for where you think it is going.
    Secretary Young. Well, I hope I can allay your concerns. 
For me, there will not be transparency issues between the 
Department and the Congress on the things. You know, as we 
worked through the MDEB to produce the President's budget for 
2010, I won't be as able to talk about that budget until it is 
the President's budget.
    Ms. Tauscher. That is right.
    Secretary Young. But for the other issues like program 
execution, whatever is briefed to the MDEB in terms of the 
status of programs and their cost performance, I would be 
prepared for that to be briefed to the Congress also.
    Ms. Tauscher. Great.
    Secretary Young. And these business rules are being 
reviewed in the Department and presented to the Deputy 
Secretary. As soon as those business rules are done, we will 
provide those to the Congress.
    So other than the things that the President has to approve, 
I believe you will have visibility, just as when I make Defense 
Acquisition Board (DAB) decisions and issue Acquisition 
Decision Memorandums, the Congress becomes aware of how we 
decided to execute programs. So I intend to give you that 
visibility on an appropriate timeline.
    Ms. Tauscher. We appreciate that very, very much.
    Mr. Everett.
    Mr. Everett. Thank you, Madam Chairwoman.
    General Obering, over the past year, there has been a lot 
of concerns about deploying the GMD system, and that it may not 
be the most effective way of defending Europe.
    Can you explain why the decision was made to propose 
placing 10 ground-based interceptors in Poland versus other 
system solutions, such as why can't we use THAAD and the SM-3 
missile to protect Europe in our early warning radar from 
medium- and intermediate-range missile threats? What are the 
costs and implications of the Navy or the Army's force 
structure requirements if an SM-3 or THAAD alternative were 
proposed?
    General Obering. Yes, sir, I would be happy to.
    We saw the developments in Iran as very disturbing. While 
we have capabilities to address missiles like the Shahab-3 or 
the Shahab-3 variants that we have seen fly--and those are the 
SM-3s that we have fielded today; Patriot Advanced Capability 3 
(PAC-3) also has capability against some components of the 
shorter-range missile force--we did not have long-range 
coverage. And we knew that they were developing longer and 
longer-range weapons. We have seen that just in the past year.
    So we looked at, what were the alternatives? We evaluated 
the GMD, the GBIs, we evaluated the THAAD; we evaluated the SM-
3 Block 1B, which is the missile that would be available in 
about the 2010 time frame. And of all of those, there is not a 
capability against the longer-range weapons greater than 4,000 
kilometers, 3,000 to 4,000 kilometers, other than the GBI, 
anywhere near the time frame. The closest thing that comes to 
that would be the SM-3 Block 2A, which is a 21-inch, sea-based 
missile that will not be available until 2015 or beyond.
    So we looked at all of those, and that is how we decided on 
the GBI.
    The reason we decided upon the 10 is really relating to the 
earlier analysis. We looked at what we thought the Iranians 
would be capable of producing in the time frame, 2015, in that 
time frame, 2016, around there. And 10 was a reasonable number 
to provide persistent 24-hour, 7-day-a-week coverage for our 
European partners, our deployed forces, allies, and friends.
    And I asked often, what if you are wrong? What if they 
develop twice that many, or whatever? Our answer is that that 
would provide the initial protection, and then if we need to 
surge that for the future, that is when we would bring the sea-
based, 21-inch missile, because it would be available by then, 
in the latter part of the decade.
    So that was our concept. We looked at the cost 
implications. And if I could back up, THAAD does not have a 
capability against the longer-range weapons to be able to--of 
any substantive, definite area footprint.
    We looked at the cost implications. And, also, the GBIs 
were the most cost-effective solution to that. If we were to go 
strictly with the sea-based, 21-inch as the overall solution, 
we would require at least 4 ship stations to provide the same 
definite area of coverage, with about 2 to 3 ships per station. 
That was more costly, and it also was something the Navy is not 
very interested in doing, tying up that level of ship force 
structure to be able to do that mission.
    So that was the rationale behind what we did.
    Ms. Tauscher. Mr. Everett, I am happy to go to you as soon 
as we are finished these votes. Why don't we take a 20-minute 
break. We will do these two votes.
    The witnesses, you have about a 20-minute break. We will be 
back as quickly as we can. We will go back to Mr. Everett. We 
are going to suspend for 20 minutes.
    [Recess.]
    Ms. Tauscher. The subcommittee will come back into order. 
Our colleagues will come back from votes.
    I wanted to return the time to Mr. Everett so he could 
continue his questioning.
    Mr. Everett.
    Mr. Everett. Thank you, Madam Chairman.
    Dr. McQueary, the test that we had in September 2007 
occurred too late to be incorporated into the 2007 DOT&E 
report. And my question would be, if it were included, what 
difference would that make in the report?
    Dr. McQueary. Sir, we have gone back and looked at our 
report, and we did touch upon that flight as a part of our 
evaluation. The thing that had not been done is a complete 
evaluation of all of the data.
    So, subsequent to having looked at where we are now, our 
conclusions would not be any different than what they were in 
the report at the time in which we had limited, but enough 
quick-look information, to get an indication as to how well the 
system test had performed.
    Mr. Everett. And, finally, the chairman expressed, and I 
have expressed our--we are concerned about targets.
    Dr. McQueary. Yes, sir.
    Mr. Everett. And, General Obering, I am concerned because I 
think that the current plan is going to be a little late. And I 
would not like to see the targeting situation impel or set the 
pace for our test. Is there anything we can do to speed this 
up? How could Congress help?
    General Obering. Yes, sir. Well, first of all, if I could 
just provide a little context. We have had 2 target failures in 
about 42 flight tests, and 4 target failures, complete 
failures, where we could not get the objectives of the test, 
overall, including some of our radar characterization flights. 
And some of those have occurred more recently as we have gotten 
to the bottom, so to speak, of the barrel of some of the legacy 
targets.
    Now, that is the context. Now, the activities that have 
occurred, first of all, we felt that we had a requirements 
process that was much too variable. In other words, we were 
trying to get each class, or type of target, to do too much 
based on the various program inputs. And that requirement 
variability was driving up the cost and driving some of the 
delays in the target program.
    And, frankly, we had some inexperience in terms of 
management on the Government side, and we also had some 
inexperience in terms of management on the contractor's side.
    What we have done to address this now is that, first of 
all, we have instituted a very disciplined requirements process 
that is controlled by a third party, the Engineering Chief. 
And, in addition, we changed the management on the Government 
side, and the contractor has changed the management on the 
contractor's side.
    And we may need help from the committee in the 2009 request 
with respect to some funding support in the targets program 
that we can supply you for the record.
    But that is what we think will stabilize this process.
    I often get asked, though, why don't we have three or four 
or five targets that we could just pull off the shelf and go 
fire? Well, what would be useful is to have an extra target as 
we were processing through preparing for flight. For that 
matter, it is good to have an extra interceptor, and we are 
planning to do that, to institute that approach.
    It doesn't do us much good, though, to have four or five 
targets on the shelf and, if we get a failure in flight, just 
pull another one out and launch. Because we have to understand 
what failed in that target before we go launch another one. And 
usually that is not the driving factor, therefore, in our test 
program.
    Mr. Everett. Doctor, I see you are agreeing with that.
    Dr. McQueary. Yes, sir, I do. I think it is very important 
on highly complex situations, such as MDA, to have an 
understanding of what the information provided by testing does 
for you. So it takes time to analyze the data. And 
particularly, if you have of a flight failure, things don't 
always turn out to be factually what they might appear 
initially. So it is important to study the information 
carefully.
    Mr. Everett. Secretary Young, do you have any comments on 
that?
    Secretary Young. I certainly agree. I think General Obering 
will tell you, the cost of his testing is fairly expensive. So 
to have those backups so that you could potentially hold a test 
date, and all of the test planning and test personnel support 
that is in place to conduct that test in a window, is critical. 
And it is probably going to be worth the investment in the 
additional hardware, the backup hardware.
    Mr. Everett. General Campbell, does this cause us problems 
in being able to proceed in buying these other missiles that we 
need, the additional missiles like THAAD, and GBI, and----
    General Campbell. I don't really get the context of your 
question. The target issue?
    Mr. Everett. I guess. Does it hurt our warfighter that we 
may not get the testing done as quickly as we want to do the 
testing?
    General Campbell. That would be problematic. Of course, we 
like to see the test and ensure that they happen on schedule so 
that we can do the military utility assessment to alert the 
combatant commanders as to the capability of the system they 
are about to receive. So keeping tests on schedule, critical 
from the user's perspective.
    Mr. Everett. Madam Chairman, thank you.
    Ms. Tauscher. I thank the ranking member.
    I will go to Mr. Larsen from Washington for five minutes.
    Mr. Larsen. Thank you, Madam Chair.
    Dr. McQueary, just a little bit more on the testing and the 
targeting. I noted in your testimony, page 5, you discussed 
that during the 18-month period concluding at the end of 2007, 
MDA suffered 4 target failures during 20 flight tests.
    Can you just give the committee some consideration of what 
the impact of target failures have on your ability to evaluate 
the test program? And what that might mean, you know, for your 
testing programs, you know, a year out or two years out?
    Dr. McQueary. Well, certainly if you have a failure and 
there is a need to repeat the test as a result of that failure 
that occurred, then that obviously slows things down in terms 
of gathering information.
    A more important issue for us, though, is the development 
of the modeling and simulation; and we may get to that in later 
discussion. Because we really feel strongly that if we have 
high-fidelity modeling simulation, which is being worked on in 
detail by MDA, that that will permit us to make much better 
progress in evaluating, and providing to the country, effective 
measures.
    Mr. Larsen. Well, then, let's get to that now. Why don't 
you discuss for us the modeling simulation, models and----
    Dr. McQueary. All right. If I may, just to put this into 
context, we frequently hear, we get asked the question, ``Well, 
what is the effectiveness and suitability of where we are right 
now, in which we have limited information?'' And if I may just 
put it into context, if we are dealing with statistics--and 
this is a lot more complicated issue than just a simple 
mathematical equation associated with statistics--but if you 
are looking at it purely from a statistical standpoint, if you 
want to prove that you have a 90 percent probability of having 
a mission success with a confidence level of 80 percent--in 
other words, you never get to 100 percent--you need to run 21 
identical tests, and they need to be successful in order to 
prove that.
    So very quickly, you can conclude with a system as 
complicated as MDA is, which has a huge battle space in which 
to operate and many very scenarios with targets and so forth, 
that it would be very difficult to ever afford to do testing to 
the level that one would need to do in order to gain a 
statistical level of confidence what is there.
    However, if we develop high-quality models and simulation, 
and use the testing that is done to prove that those models and 
simulation actually do represent the way the system performs, 
then we can use the computer, if you will, to do many, many, 
many runs. So you can explore battle space after battle space 
and varied parameters, such as missile performance and 
engagement scenarios and so forth, in a given area.
    And so that is why we keep saying it is so important to 
modeling and simulation as an adjunct to the test program.
    Mr. Larsen. Do we need a certain number of live tests in 
order to do that--and a certain number and a certain kind of 
live tests in order to do what you ask?
    Dr. McQueary. You certainly do need the live tests. I am 
not an advocate of saying, ``Why don't we just prove all this 
out by modeling and simulation; when we get to the real 
situation, we will have confidence it will work.'' That is not 
what I am saying at all.
    Mr. Larsen. But certain numbers and certain kinds?
    Dr. McQueary. Certain numbers and certain kinds. And we 
would certainly expect, as the models and simulation are proven 
to be effective in the way that they operate, we would expect 
to continue as we have been doing, working with MDA, to help 
structure a test that would help gather information that would 
be useful in proving to a high degree of confidence that the 
models in simulation are representative of the true system.
    Mr. Larsen. General Obering.
    General Obering. If I may, yes, sir. I totally agree with 
Dr. McQueary. In fact, we have laid out, in part of our pretest 
reviews, I request--and the DOT&E representatives that do our 
reviews also request--what are the models and simulations that 
will be validated, or what are the anchor points that we are 
going to demonstrate this test, as it relates to the 
objectives. And so, he is exactly right.
    And, also, to your point, we have models and sims that we 
use today. We use them to predict fly-outs. That is how we did 
the satellite shoot-down, frankly, was a model that showed what 
our success rate would be. So, we have confidence in that. But 
we have to make sure we go through this very exhaustive 
verification and validation and accreditation process.
    So what we have done is we have laid out which tests we are 
going to run, to anchor the models that we need, at what time 
frame, and issue a final report. And that should be done in the 
September-October time frame of 2009. So we should have a final 
accreditation report to be able to provide to DOT&E for their 
concurrence.
    Mr. Larsen. And that will lay out the testing protocols and 
timelines beyond 2009?
    General Obering. What that will do is say, by that time, we 
should have certified and accredited models and sims that we 
can then use not only with our blessing, so to speak, but the 
community's blessing that that is representative of the entire 
performance of the system.
    Mr. Larsen. The entire performance of the system.
    General Obering. Yeah, that includes all components--Aegis, 
THAAD, et cetera.
    Mr. Larsen. Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Franks from Arizona for five minutes.
    Mr. Franks. Well, thank you, Madam Chairman.
    General Obering, I know that it has already happened many 
times that you have been acknowledged here before this 
committee for your great service to the country; and I can only 
say to you that we are all very grateful that you decided to 
come by our way. Future generations will, I believe, have 
better lives and better security because you did what you did 
with yours.
    General Obering, I guess I wanted to explore two key 
statements that you and General Campbell made in your opening 
remarks. You indicated that you are using a 75-25 approach to 
balance investments in near-term elements versus far-term 
elements. General Campbell stated that as ballistic missiles 
obviously are growing in quantity, they are also growing 
qualitatively, and that that consideration needs to inform any 
development efforts that we make.
    Are we too focused on providing terminal-phase defense at 
the expense of boost-phase? Are we risking getting behind the 
eight-ball, here a little bit, on multiple warheads or 
countermeasures?
    General Obering. Sir, if I may, I believe that the 25 and 
75 percent mix is appropriate for now, because this is about 
what you would expect when you had a long-term research and 
development program that was much the other way for so many 
years. As we start producing the capability that the 
warfighters want, you are going to see this swing toward the 
near-term capabilities. So that is probably appropriate.
    If you look out over the entire Future Years Defense 
Program (FYDP), those numbers become more like 60 percent near 
term, 40 percent longer term; as you would also expect, that we 
want to make sure we maintain these long-term capabilities.
    But to reinforce what General Campbell said, we cannot, we 
cannot sit on our laurels, so to speak, now. Because we can 
handle--for example, we could handle what we would anticipate 
in terms of countermeasures from countries like Iran and North 
Korea today, but we cannot handle much more complex ones. And 
in order to do that, we are going to have to have these more 
advanced capabilities--things like birth-to-death tracking with 
a space tracking and surveillance system; multiple kill 
capability for each interceptor, as represented by our Multiple 
Kill Vehicle (MKV) program.
    And, as you say, the ultimate in trying to defeat a 
countermeasure is to shoot it down in the boost phase before it 
has the ability to do any of that. And we have the two 
programs, KEI and ABL, to do that.
    I do share the concern that we don't get so overly focused 
on the near term that we forget the long term. In fact, if we 
had done that in the mid-1990's, we would not have had a system 
to turn on in 2006 when the North Koreans were doing their 
thing, because that was considered a long-range program at that 
time.
    Mr. Franks. I aim this at Secretary Young and General 
Obering.
    The President's budget requests $10 million for a Space 
Test Bed. And could you describe to us what would be 
accomplished with the $10 million request and, if we had the 
money to build a system, what capability that we would try to 
aim for?
    And, you know, this is in the backdrop, obviously, of 
concern that China may be making some advancements that we need 
to be prepared for.
    General Obering. Well, first of all, let me explain what it 
is not. It is not a return to Brilliant Pebbles. It is not a 
return to a massive space-based constellation. We don't need 
that today because of what we have done terrestrially, in terms 
of our advancements.
    But, we do believe it is prudent that, as we look to the 
future, we have some modicum of a space-based layer to the far 
future, because we are a space-faring Nation. And being able to 
have that, we think would be very useful.
    Now, the specific instance of the $10 million I am asking 
for this year is precisely to basically inform the debate about 
whether we do that or not. We have big questions about this. 
For example, going to space is very expensive, with respect to 
weight, so can we get lightweight components? And where are we 
in that state-of-the-art to be able to do that? The command and 
control is a vital management; the communications architecture, 
what would that look like for something like this?
    And what I mean by modest, I am talking about just a layer 
that would be able to cover potential emerging threats that we 
cannot cover today. And it would give us the flexibility to be 
able to do that in the future without continuing to populate 
the world with silos, or with fixed radars, or land-based, or 
even sea-faring radars, for that matter. It is the more cost-
effective way in the long term.
    But we need to inform that debate. So $10 million is an 
extremely modest amount to try to explore the experimentation 
of that. But it is not a space-based interceptor program of 
itself. We are not advocating for that, at this point.
    Mr. Franks. I understand.
    Well, General, the Multiple Kill Vehicle program is a 
pretty logical means of creating a volume kill capability 
against countermeasures and, obviously, increasing the 
probability of a kill without the enhanced discrimination that 
is always a challenge technologically. And I think it is a 
critical element.
    Right now, it consists of a--the Multiple Kill Vehicle 
consists of a dual-path approach with two contractors pursuing 
really, very different technical designs.
    What is the benefit and affordability of the dual-path 
approach? And what are the technical and operational risks 
associated with MKV?
    And I guess that is my last question here.
    General Obering. Okay, sir. Well, first of all, having the 
ability to destroy more than one credible object when you go 
into the future; and in the 2015-and-beyond time frame is going 
to be very, very important because of the countermeasures, 
decoys, what I just talked about.
    This capability is going to be not only important for our 
land-based interceptors, but also our sea-based interceptors, 
because we know that these capabilities are not exclusive to 
just the long-range missiles. They can be deployed even on 
short-range missiles. So we need that capability.
    I thought it would be prudent to pursue an acquisition 
strategy in which we had an ongoing type of a competition, to 
call it that, between two suppliers. And if you look at the 
population and the force structure that we may be looking at 
for missile defense in the future, it would support that type 
of an approach.
    When we issued the--and I will be very candid--when we 
issued the MKV demonstration contract to Lockheed Martin 
originally, the first one, we saw a change in behavior on the 
part of Raytheon, that was producing our kill vehicles already 
on the GBI program, immediately. So there is this benefit in 
being able to have an alternative as we move through the 
Government. So we think it is a very prudent thing to do.
    We did this before on our missile, on the GBI. We had two 
versions, if you remember, of our ground-based mid-course 
interceptor. And thank God we did, because we ended up blowing 
up one of the plants in California that set us back on the one 
version, and we were allowed to go to the other one.
    So those are the kinds of things, if we have those 
alternatives, we think are very important.
    Mr. Franks. Thank you again, sir.
    Thank you, Madam Chair.
    Secretary Young. May I add a comment to that, if you don't 
mind?
    Ms. Tauscher. Please.
    Secretary Young. As a matter of policy, I have asked across 
the Department that we do competitive prototyping at these 
early stages where we have substantial risk, challenging 
requirements. Because we have frequently found, it has been 
noted by other people, including the Government Accountability 
Office (GAO), that we go into those later stages of development 
with immature technology, and we find ourselves with problems 
in terms of cost and schedule.
    So, I believe it is critical for all the reasons General 
Obering cited, and really hope the Congress can work with us to 
support that. It is going to give us a better chance, 
ironically, to finish delivering the product with more 
confidence, in shorter amounts of time, and I think actually 
for less cost, because we did the right work up front, in a 
competitive environment, and at a point in time where we were 
spending at lower rates, but learning the technical lessons we 
can't afford to learn in the final design stages.
    Ms. Tauscher. Thank you, Mr. Franks.
    Mr. Spratt of South Carolina, five minutes.
    Mr. Spratt. General Obering, you have been a pleasure to 
work with, and you have every right to feel proud of what you 
have accomplished during your years there.
    It appears that the GBI is the most mature, or the closest 
to fruition, of the systems that are under your umbrella. What 
does it have to do to prove its operation--or still have to do 
to prove its operational capability (OC)?
    General Obering. Well, sir, I would say that probably the 
SM-3 1A is probably the most mature, but the GBI is certainly 
right there behind it.
    First of all, we have flown the operational configuration 
of the GBI in two flight tests now, in going back to September 
2006, and then we flew in September 2007. We also had 
nonintercept flights earlier than that, as well. And it has 
performed very well.
    In the latest test that we did in September, we flew a 
threat-representative target--albeit it did not have 
countermeasures, but I will address that in a second--across an 
operational radar in California, and we intercepted it with an 
operationally configured interceptor that was launched by 
soldiers from Colorado Springs, using the operational fire 
control software and hardware, and we used----
    Mr. Spratt. Does this incorporate the X-Band radar too?
    General Obering. It did not incorporate the X-Band radar, 
but it did incorporate the operational ultra high frequency 
(UHF) radar at Beale. So it was a valid, what we call, 
Engagement Sequence Group that is part of our Block 6 
approach--the old Block 6 approach.
    What we intend to do for the next flight test, later this 
summer, is to incorporate those countermeasures. Now, we have 
flown against countermeasures in the past with a prototype of 
this kill vehicle, and it performed very well. What we want to 
do is evaluate this kill vehicle in its full operation and 
configuration against those countermeasures. And we are going 
to do that this summer, as I said, as well as the next test.
    In addition, we are going to incorporate the forward-based 
X-Band radar in our next flight test in an X-Band radar and a 
UHF radar combination for that. So we think that goes a long 
way to giving us more and more confidence that we do have even 
more capability.
    As I say, I am comfortable and I am confident that we have 
the operational capability today that we need in terms of 
limited fashion. But to be able to show this end to end, we 
think we will be able to do in the next two flight tests.
    Mr. Spratt. Looking at your requested buy levels, 10 here, 
10 there--Fort Greely, 10; Vandenberg, 10--it is not the kind 
of massive full structure that you would expect of a system. 
Basically, it appears that the system's primary mission is to 
protect against unauthorized and rogue strikes, fairly limited-
sized strikes.
    If we had an attack by a major power, without naming names, 
we would still have a hard time fending off such an attack, 
would we not?
    General Obering. Yes, sir. We have not fielded a capability 
against a massive attack. That is true.
    Mr. Spratt. You mention the SM-3. Is the SM-3 a competitor 
with, or complementary to the GBI? And in the final force 
structure, will these two be complementary systems?
    General Obering. Yes, sir, very much so. In fact, the SM-3 
is addressing the short- to medium-range missile threat, 
whereas the GBIs address the long-range, the intermediate, and 
the ICBM threats. So, they complement each other in an 
integrated fashion.
    Mr. Spratt. How important is the, what I still call Space-
Based Infrared System (SBIRS)-Low, but the Space Missile 
Tracking System (SMTS) to the full success of those systems?
    General Obering. We believe, as I mentioned in my earlier 
statements, that that is extremely important as we move into 
the future. Because what that allows us to do, there are things 
other than countermeasures that an enemy can do in that 
midcourse region. And typically, that is the region that can be 
uncovered by ground-based radars for long periods of time.
    If we had a space-based Space Tracking and Surveillance 
System (STSS) that provides the same precision of track that we 
get from a ground-based sensor, we could close those gaps. So 
we could provide what we call birth-to-death tracking. And that 
would help address that type of gap in our system today.
    Mr. Spratt. For boost-phase intercept, do we still have a 
face-off between ABL and KEI? Are they complementary or 
competitive systems?
    General Obering. Yes, sir. In the boost phase, they would 
be competitive. And that is why we wanted to have alternatives. 
In fact, we created the KEI program as an alternative to the 
ABL in the boost phase at a Defense Science Board 
recommendation from 2002. And so----
    Mr. Spratt. But eventually would you choose between the 
two, do you think?
    General Obering. Yes, sir, we would for the boost phase. 
Now, that doesn't mean that if KEI, for example, is successful, 
that it would not have utility in other areas of the 
architecture, such as a mobile midcourse capability.
    But, clearly, for the boost phase, we would have the--for 
example, the ABL, if it is successful and if it is 
operationally affordable--which we will go through a period to 
determine that--that would be the boost-phase defense of choice 
because it has more flexibility against, not just long-range, 
but as well as short-range threats.
    Mr. Spratt. Thank you, sir.
    Ms. Tauscher. Mr. Reyes, do you have any questions before 
we go to a second round?
    Mr. Reyes. Sure, just a couple of them.
    General Obering and General Campbell, good to see you all.
    Secretary Young. Nice to see you.
    Mr. Reyes. Gentlemen, thanks for being here.
    I have a question for both Secretary Young and General 
Obering.
    Have any foreign nations expressed interest in purchasing 
THAAD fire units through foreign military sales?
    Secretary Young. We certainly have some nations that have 
expressed interest in understanding THAAD and possibly even 
buying it. We are working our way through those details. 
General Obering could probably add more to that. We are not at 
a final stage of any of those discussions.
    General Obering. We have at least one country that I will 
not name here, but we do have at least one country that is 
fairly well down that path, in terms of requesting the 
authority to buy a THAAD capability.
    And I personally believe that, for many countries, as we go 
around the globe, THAAD is a very attractive solution for 
nations that have most of their population in the littoral 
region, for example, in terms of their protection, nations that 
are interested more in a combination of terminal defense 
between a THAAD and a Patriot type of capability.
    So, I do believe it is going to be very attractive 
internationally.
    Mr. Reyes. Will the potential international sales of THAAD 
help reduce the overall cost of the system?
    General Obering. Yes, sir. We would hope that that would be 
the case, yes, sir.
    Mr. Reyes. And, well, are there any technology security 
risks or issues like that associated with the potential sale of 
THAAD to foreign nations?
    General Obering. We are very serious about that, sir. We go 
through a very exhaustive process on, number one, what 
technologies we feel comfortable in being able to make 
available to our allies and, also, what other steps we can take 
to make sure that any technology that we do not feel 
comfortable are not being able to be exploited by other 
countries. So we have a very exhaustive process that we go 
through for that.
    Secretary Young. In fact, you know, this is true beyond 
missile defense. And we actually would like to engage in a 
discussion with the Congress on ways we can have the customers 
help support engineering and those features where we think they 
don't need as much capability as we have, or we need to protect 
our technology, so they don't come at the expense of the U.S. 
taxpayer or U.S. capability. And there ought to be ways to do 
that.
    And it has become more important to have some of those 
funds, as it costs more to engineer those features or customize 
them for an ally who wants to buy equipment.
    Mr. Reyes. If sales do not occur, what would be the 
implications for keeping the THAAD production line hot, as it 
were?
    General Obering. I am not sure I understand your question, 
sir, but we intend to keep the THAAD production line ongoing. I 
mean, just because we are going to deliver the first four fire 
units--and I want to go back again to my opening statement. I 
am responsible for development and initial fielding. The Joint 
Staff (JS), in working through the MDEB process that we have 
talked about, the force structure determinations will be made 
by the Department, and then we will respond to those force 
structure determinations.
    So, right now, the Joint Capabilities Mix Study that was 
accomplished by STRATCOM and the Joint Staff that was recently 
approved, by the way, by the JROC, asks for us to double the 
production of THAAD and then double the production of the Aegis 
SM-3. And we intend to do that in our program that we bring 
forward in the next budget.
    So, we envision that there will be many more units than 
just the first four THAAD fire units.
    Mr. Reyes. Well, that brings up another question: So when 
would the decision to proceed with number five be made?
    General Obering. That would be part of the 2010 budget 
submission through the Department.
    Mr. Reyes. Okay. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. You are welcome, Mr. Reyes.
    We are going to start a second round of questions.
    While the Department of Defense has done some studies, such 
as the Joint Capabilities Mix Study II (JCM II), it is not 
clear that the Department has done a comprehensive analysis, or 
has a process in place to determine future missile defense 
force structure requirements. Instead, things are being done in 
an ad hoc manner.
    Secretary Young and General Campbell, how does DOD plan to 
ascertain a desired force structure for each missile defense 
element that will meet combatant command needs? Who will be 
involved in making procurement decisions?
    And, finally, how will DOD balance near-term and mid-term 
combatant requirements to get more assets into the field 
against development plans for longer-term needs? And who is 
making these decisions--MDA, the services, the Office of the 
Secretary of Defense (OSD), or perhaps now MDEB?
    Secretary Young. Maybe I could start and let General 
Campbell add to it.
    The MDEB has subcommittees, and one of those subcommittees 
is the Operational Forces Committee. And it is chaired by the 
Vice Chairman of the Joint Chiefs. So it will be, I think, the 
primary venue for discussion and trades of what capability we 
are buying and whether that is the right mix of capability.
    Those discussions will have to be informed by MDA. MDA 
manages--General Obering's team manages their business as a 
portfolio, and they can help best illuminate trades between 
buying short-range, medium-range, or intermediate-range, buying 
naval versus land-based.
    So I think we will do a better job because that Operational 
Forces Committee also will have STRATCOM participation. Aside 
from that, STRATCOM has established better linkages with MDA, 
as the primary force advocate for missile defense.
    You are right to ask, and I think we will have to tell you, 
these are going to have to mature as processes. But I believe 
these are the processes that will help define the warfighting 
requirement and let the MDEB work to see how MDA addresses 
those warfighting requirements and makes trades within its 
budget, because we will always be resource-constrained, but 
prioritize the use of MDA's budget to get what the operational 
forces demand.
    Ms. Tauscher. Now I am really confused. Why is it MDA money 
to buy for General Campbell? Why would it be MDA's portfolio? 
MDA is an R&D organization. Why would it be not money that is 
ported over to General Campbell?
    Secretary Young. Two questions. Analytically is what I was 
suggesting to you is, if you wanted to look at a trade between 
GBIs or THAADs versus SM-3s, you need some of the analytical 
capability at MDA. We can independently validate it with, 
probably, work by program analysis in Bio Assessment and 
Evaluation, BA&E. But we need those technical views to help 
inform the requirements in terms of those levels of trade.
    Financially, to date, as you probably understand, MDA has 
used R&D funds to buy and field the initial assets to make the 
urgent capability. And we are on a path, I believe, to continue 
that process until we can get agreed transition points for the 
services to take over. But even at some of those transition 
points, because MDA needs to maintain configuration control of 
complex systems, we are considering an option that would budget 
for the procurement of systems with Defense-wide money by the 
systems and sustain the systems with Defense-wide money, that 
money being transferred to the services in any year of 
execution to maintain those systems.
    The alternative model that has the services budget puts 
missile defense in a competition with lots of other assets. And 
the leadership of the Department has not been prepared to make 
that choice until we get much more mature with missile defense 
systems.
    So the initial path--and this is one of those rule sets 
that has gone through the MDEB--is we are going to, in the near 
term, buy systems through Defense-wide funds--the Congress has 
asked us to buy things that we are procuring with procurement 
funds, so we are going to look at that in the fiscal year 2010 
budget--but continue to buy with Defense-wide until we can make 
a more confident handover to the services.
    Ms. Tauscher. General Campbell.
    General Campbell. Yes, ma'am. We have a number of 
processes. The first one is the Warfighter Involvement Program, 
which, again, is maturing. It is a way to shape what MDA does 
on behalf of the warfighter, and then we adjust our force 
structure accordingly.
    We have had the Joint Capabilities Mix Study. We do the 
military utility assessment that shapes the activities within 
the Missile Defense Agency. We are doing a study on the 
deployment of the forward-based X-Band radars that will shape 
the force structure and how we employ those assets.
    We have a transition and transfer process that is maturing 
within the Department on how we hand those systems over, so we 
had better understand what does it take to run that system, in 
terms of manpower as well as money, resources for operational 
and support cost. And we play in the global force management 
process within the Department on figuring out how many assets 
need to go into which combatant command and if there are, in 
fact, shortfalls.
    Ms. Tauscher. Secretary Young, I think that we have, kind 
of, hit on the head of the problem that I perceived and that I 
think many members perceived for a long time, as to why we 
cannot integrate missile defense into the force structure 
across the platforms of, specifically, the Army and the Navy 
and others.
    It is partly because they do not see the money, and it is 
very difficult. I think everybody is saying, ``Yes, I would 
like one of them. I would like one of them.'' If you have to go 
find the money to acquire one of them, they do not and they 
have not, and that is an unsustainable situation for us.
    So, I think what we would like is to, kind of, peel the 
onion on that a little bit further with you over the next 
couple of weeks, because we do not see that this is getting 
resolved quickly enough, and not enough is being done to drive 
these systems down into the services and to create enough 
demand inside the services for the capability, and for a sense 
that they can buy them without finding new money.
    Secretary Young. I think you are right, and I think I can 
make a lot of difference.
    Ms. Tauscher. I hate it when I am right.
    Secretary Young. But there are also some other angles to 
that discussion. Services will ask for significant amounts of 
equipment when they think Defense-wide funds will pay for it. 
Even when they take over--and this is not unique to missile 
defense--in some cases, they will have demands for aircraft or 
ships or other things, and bring budgets forward to OSD that 
underfund what might be needed, to see if there is OSD money or 
additional money or----
    Ms. Tauscher. That is how the last 25 C-17s have been 
procured, by the way.
    Secretary Young. So you understand the issue very well.
    These rules have not been blessed by Secretary England yet, 
but I do believe they are consistent with his thinking. We need 
to deliver a base set of missile defense capability, and to 
make sure it is not constantly part of these budget churn 
processes and fund them out of Defense-wide. I think that is 
not--from my view, that may not be the final model. That model 
will evolve to something that is more like what you said with 
the services.
    In some undetermined interim period, this is going to get 
the minimum base set of capabilities and is going to give the 
whole of the Department--I hope we will realize some of your 
hopes through the MDEB. Every service can see, and the vice 
chairman is part of it. We will make sure that we are driven to 
buy the most urgent sets of operational capability and will get 
them in the field.
    Could I add one comment?
    Ms. Tauscher. Sure.
    Secretary Young. I am sure General Obering would want to 
add this comment and would do better than I would.
    In that process, they do have a plan to bring the services 
into almost transition-like teams. But as they move to the more 
mature stages of production and fielding, and have service 
people on those teams and have those service people begin to 
take the leadership role even though they will be executing 
some other work, particularly the sustainment with Defense-wide 
funds, there will be service people to address some of those 
transition processes you are thinking of.
    Ms. Tauscher. Thank you.
    General.
    General Obering. Yes, ma'am. We think we have hit a very 
good management model that Secretary Young just reflected on.
    If you will, our critical portion of this is that, as we 
mature and deliver these capabilities and as the services begin 
the operations and maintenance (O&M) of these, it is critically 
important to maintain the integrability of these so that we do 
not have THAAD and Aegis, and the GMD becoming disconnected in 
a disintegrated layer system just like, if I may point out as 
an example, the ship that shot the satellite down.
    It could not have done that by itself. It could not have 
done it by itself. We had to open that ship up and integrate 
off-board sensor data into that weapons system. The same thing 
is true between land-based radars and ship-based interceptors 
and land-based--or ship-based radars and land-based 
interceptors across the board.
    So that is why we think this umbrella in the service, in 
the MDA partnership, is a great model for being able to 
accomplish that.
    Ms. Tauscher. Thank you.
    Mr. Everett.
    Mr. Everett. Thank you, Chairwoman.
    General Obering, I would like to go a little bit where Mr. 
Spratt was a few minutes ago in ABL. As I understand it, the 
down-select will be done in 2009 if both of these tests are 
taken out. If ABL is successful, the decision will not be made 
simply on the fact that it was successful, but also on the 
affordability, basing, and that sort of stuff.
    How will that impact if KEI is not successful? Do you still 
make that decision on affordability and basing?
    General Obering. Yes, sir. Right now, ABL is on a track, 
and it is meeting all of its defined knowledge points, to be 
able to shoot a missile down in 2009. KEI is also on track. It 
had a couple of setbacks this year on the second stage, but it 
is also on track to fly that very high-acceleration booster in 
2009.
    If both are successful, then what I would anticipate is 
that we are going to take ABL in a transition period to 
determine whether or not--we will take all of the data, the 
lessons learned from all of our very robust testing, and we 
will determine what the second aircraft or the second tail 
number would look like, and would it be made operationally 
affordable as part of this understanding.
    That period will be some number of years. KEI, in the 
meantime, could afford an emergency boost-phase defense, if you 
want to call it that, during that time frame.
    If they are both successful, I would anticipate we will go 
through this transition period on ABL. KEI would probably end 
up becoming our midcourse mobile capability for the future. 
That is why I think that we would continue that program as 
well.
    Mr. Everett. You would go down that road of having GBI 
where it is, and then also having KEI as a midcourse?
    General Obering. Yes, sir, because I think it will feather 
nicely. As we will be coming off the GMD program, we will be 
able to ramp up the KEI program.
    Mr. Everett. Let me ask you one other question, please. 
What if they both fail? Do we have a plan B?
    General Obering. The likelihood of both of them failing is 
not very high, but if that happens----
    Mr. Everett. Well, let's put it another way. What if they 
do not fail but, because of basing, which is a problem, and 
affordability's being a problem, what do we do? I mean, if we 
have to say, ``No, we cannot use them because of basing, 
affordability, or failure,'' where do we go then?
    General Obering. I understand. There are other options that 
we could pursue. You know, we like to think of ourselves in 
terms of crawling, walking, and running. One of the areas that 
we have where we are crawling, barely, at is an air launch 
capability of an air-carried interceptor to be able to 
accomplish a boost-phase mission. It would not be optimum in 
terms of range or in terms of coverage, but it would give us a 
capability that could be considered as an alternative.
    Then, frankly, other than ABL-directed energy, KEI, or air, 
the only other place you can go is space.
    Mr. Everett. The F-16 or F-whatever naval jet, could that 
be based on a destroyer?
    General Obering. Oh, yes, sir. We, actually, conducted a 
test in the desert this past year that demonstrated the 
viability of being able to do that--being able to shoot a 
boosting missile with an air-launched interceptor. But we have 
a long, long way to go there.
    Mr. Everett. Thank you, Chairwoman.
    Ms. Tauscher. Mr. Larsen for five minutes.
    Mr. Larsen. Thank you, Madam Chair.
    I have a couple of questions on this same issue, but I will 
come back to that. I have just a follow-up to the last set of 
questions I had about the models and simulations.
    As I understand it, General, you said in September 2009 you 
will have models and simulations ready to be validated, or you 
expect that they will be?
    General Obering. That would be the validation. They would 
be validated at that point.
    Mr. Larsen. They would be validated.
    Dr. McQueary, is that your understanding as well?
    Dr. McQueary. Yes. Yes.
    Mr. Larsen. That is your understanding as well.
    Dr. McQueary. This is newly developed information, and so 
we have not had a chance to go into great detail and make sure 
we are in full agreement as to how this would be accomplished. 
Yes, this is a commitment that MDA has made, and it is 
certainly consistent with what we would like to see be done.
    Mr. Larsen. So let me ask you this then: Do you test and 
evaluate whether or not you will be able to test and evaluate 
the models and simulations?
    Dr. McQueary. We are a part of the team that looks at that 
information, an integral part of it.
    Mr. Larsen. Should we look to you, then, to determine 
whether or not that 2009 date is going to be able to get hit?
    Dr. McQueary. Well, I believe it is MDA's responsibility to 
execute the program; you should look to them. But certainly, if 
you ask us how are they doing, we will tell you as part of our 
responsibility.
    Mr. Larsen. Yes. Good.
    Back to this relationship between ABL, KEI, and GBI--
Airborne Laser, Kinetic Energy Interceptor, and Ground-Based 
Interceptor, for those who do not live and breathe it--the 
down-select is 2009. It does not necessarily mean immediate 
operation. You are going to have an X period of years where you 
are going to look at affordability.
    If the down-select goes to ABL, do you envision which 
service, as well, that goes to?
    General Obering. Yes, sir. That would be the Air Force. 
When the program was set up originally, the Air Force had the 
program. They established the infrastructure, so to speak, to 
be able to support the program, and they would be the obvious 
lead service for this.
    Mr. Larsen. Right.
    Now, Dr. McQueary, in your testimony on page three, you 
said that, ``Although Ground-based Midcourse Defense is still 
developmental in nature, it demonstrated, to some degree, many 
of the functions required for system effectiveness.''
    Dr. McQueary. Right.
    Mr. Larsen. I do not have a question for you on the system 
effectiveness. I have more of a question for you on the fact 
that you call it ``developmental in nature.'' We are hearing as 
well, though, that we are already considering a follow-on to 
the Ground-based Midcourse Defense, which could be the KEI, a 
mobile KEI.
    How should we--and this is for General Obering, as well. I 
mean, how should we look at that?
    If it is developmental in nature, it has the functions 
required for system effectiveness. If the down-select is to 
ABL, we are already looking at a follow-on to something that we 
really have not used physically, although it has the functions 
required for system effectiveness.
    How should I look at that, as an authorizer who is trying 
to make decisions on where dollars go?
    Dr. McQueary. Maybe I could let General Obering describe 
how they put the program together, and then I could amplify on 
it from the standpoint of test evaluation.
    Mr. Larsen. If there is time left, yes, or even if there is 
not time left.
    Madam Chairman, I hope there is time.
    Ms. Tauscher. There is time.
    Mr. Larsen. Yes.
    General Obering. Are you talking about the Airborne Laser 
program?
    Mr. Larsen. No. Down-selecting--and we picked ABL, but KEI 
is still sitting out there to be used as an emergency. But then 
it considers a follow-on to the Ground-based Midcourse Defense. 
But we really have not used it; is that right?
    General Obering. I understand what you are saying.
    Mr. Larsen. So why are we looking already to do a follow-on 
to something that we really have not used?
    General Obering. Okay. First of all, there is a qualitative 
difference, okay?
    Mr. Larsen. Yes.
    General Obering. That is that Ground-based Midcourses are 
fixed sites, so they are silo-based. Okay. Once you put them in 
that silo, you have defined their defended area.
    Mr. Larsen. Right.
    General Obering. Okay. As we move forward in the future, we 
want to make sure that we have the flexibility to address 
emerging threats. So being able to move away from a silo-based, 
long-range midcourse defense is important for large areas, 
okay? That is why, if KEI is successful, we believe it does 
have applicability in the midcourse for some applications, for 
flexibility to the warfighter to be able to do those moves.
    We discovered this, by the way--as we were going through 
our European site discussions with several nations early on; 
several of those nations indicated to us that, if it were not 
fixed, if it were mobile, they would be very interested in 
that, in being able to host that. That is what sparked the 
discussion about having this option for the warfighters, and 
for the Nation, and for our allies to be able to use.
    So it is something that we believe is viable. It is 
something that we think is an option that we would like to keep 
in the program for that, as opposed to just discarding it.
    Mr. Larsen. Well, I guess, from my perspective--and we have 
had a little bit of discussion about this--from my perspective, 
it still seems more conceptual than viable. And it may be 
viable but more conceptual.
    And I guess that gets back to Dr. McQueary.
    How do we test that migration of KEI from a boost phase to 
an effective tool as a midcourse interceptor?
    General Obering. If I may----
    Mr. Larsen. Yes.
    General Obering [continuing]. The concept of KEI all along 
was to be a canisterized, very fast acceleration booster. The 
kill vehicle on it is what would change. If it were a kill 
vehicle for a boost phase, that is really a more simple kill 
vehicle than a kill vehicle for a midcourse phase.
    So that is the transition, so to speak. It already is a 
canisterized, mobile platform. It is just changing the kill 
vehicle on the front end of that.
    Mr. Larsen. Yes.
    Dr. McQueary. I think the approach being used is quite 
reasonable. I mean, I spent many years doing R&D, myself. If 
you are not quite sure exactly what is going to work the best, 
it is prudent to have alternative systems available, if one can 
afford to do so. You have heard him discuss the issue of 
affordability and decisions that have to be made on that.
    So I think it is a prudent approach to maximizing the 
likelihood that, when we come through this, that we will have a 
system that can handle the threats that are identified that it 
must handle.
    Mr. Larsen. Well, I will look forward to exploring that 
further.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Spratt of South Carolina for five minutes.
    Mr. Spratt. Well, I will just pick up on that.
    I would have thought that, for the KEI, you would want to 
optimize it for the mission of boost-phase intercept. For that 
purpose, you would want to have a very fast-burn engine and 
lots of thrust coming out of the shoots. You would also need 
special optics, it would seem to me.
    With discrimination, for example, one of the traditional 
problems or concerns has been that the plume may envelop the 
missile body and be difficult to discern by a simple infrared 
(IR) reader.
    Wouldn't all of these things make this--I mean, you are 
adding stuff to the system that costs money, that adds weight 
and, yet, is essential for this mission but would not 
necessarily be needed for a midcourse mission.
    General Obering. Well, sir, that is why I said, if the ABL 
is successful, that would be the preference for the boost-phase 
defense. We already are going to have the high-acceleration 
boosters. Now, where that allows you to have a boost-phase 
defense, oh, by the way, it also allows you to have a midcourse 
defense.
    I will give you an example. We are having to remove the 
third stage of the GBI to be able to place that in Poland 
because of the battle space limitations in the European 
theater, okay? Otherwise, we need to get the kill vehicle out 
there and quickly deployed, more quickly than we would be 
allowed to with three stages. So, we have to remove that third 
stage to be able to do that. If we had a KEI type of 
capability--that has a very fast acceleration in those first 
stages--that would fit that midcourse mission very well, and 
there are other applications for that. So it is not that we are 
throwing away those boosters, we would use that acceleration 
capability.
    As to your kill vehicle, that is correct, we do have to 
have the ability to distinguish between the plume and the hard 
body--the plume and the hard body handovers, we call it. That 
is why we are conducting the experiments, the NFIRE--the Near-
Field Infrared Experiments--that we are conducting that we 
launched last year. We are conducting experiments as we speak 
this year, as well, to be able to understand what 
phenomenologies we would need in the kill vehicle sensor.
    Mr. Spratt. As to the ABL, there have been several setbacks 
in this program--schedule and technical. What hurdles did it 
have to clear to prove itself worthy of any kind of deployment?
    General Obering. Well, sir, I will tell you that I am very 
proud of what ABL has done in the last several years. There 
were many setbacks and many delays prior to that. Since 
November 2004, the program has made tremendous progress. That 
is when they achieved first light in the megawatt class laser. 
Also, in December of that year is when they achieved first 
flight of the heavily modified 747.
    Now, what they have done to date--last year, they completed 
their low-power systems integration test. What we did there is, 
first of all, we took the aircraft--there are three lasers on 
the aircraft: There is a tracking laser, there is an 
atmospheric compensation laser, then there is the megawatt 
class laser that actually destroys the missile.
    Last year, we flew the tracking laser and the atmospheric 
compensation laser on the aircraft against targets to check out 
the performance, and they met all of their performance points, 
the knowledge points, with margin. We took the high-energy 
laser, and we fired that more than 70 times in a 747's fuselage 
at Edwards on the ground, and we achieved an operational power 
at full duration of that laser in those tests. So we have now 
shown all of the major building blocks that we need to put this 
together to shoot down a boosting missile.
    So, as to where we are today, we took the aircraft--we have 
it at Edwards--we opened it up. We are now placing the high-
energy laser--we have all of the high-energy laser modules on 
the aircraft. We are going to continue installing the plumbing 
and the installations and all of the modifications to the 
optical train that we learned from our testing, and are going 
to get back in the air next year in order to shoot down this 
boosting missile.
    Mr. Spratt. Okay.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Spratt.
    Mr. Reyes for five minutes.
    Mr. Reyes. Thank you, Madam Chair.
    I was curious--for both General Obering and for General 
Campbell--at the NATO summit in Bucharest, Romania, Alliance 
Heads of State and Government announced that they were 
directing the Alliance to develop options for bolting the NATO 
missile defense system to the proposed GMD element in Europe to 
protect Southern Europe against short- and medium-range 
threats.
    Can you describe any ongoing, planned efforts to integrate 
the U.S. and NATO missile defense systems?
    General Obering. Sir, first of all, I would like to take 
this opportunity to thank Chairwoman Tauscher for her travels 
to NATO; that went a long way toward helping us with that. I 
want to thank her for that publicly.
    Yes, sir, in January of this year--there is a NATO active 
layer, theater missile defense program in NATO that the NATO 
nations are participating in, and it is to form the 
architecture, so to speak, that nations can plug their various 
missile defense components into. The backbone of that is a 
system called the NATO Air Command and Control System, or NATO 
ACCS. There is a prototype of that in The Hague in the 
Netherlands. We have our Command and Control Battle Management 
and Communications System in Colorado Springs, Colorado. Out of 
that, it forms the backbone of our Integrated Missile Defense 
System in the United States.
    What we did in January is we took those two systems--we 
took data from the NATO system and we ran it on the U.S. 
system, and we took the U.S. system data and ran it on the NATO 
system. It was very successful. The data I am talking about are 
things like radar-tracked data, mission-planning data, in terms 
of where you would place assets for defensive purposes.
    In June of this year, we are going to connect those in real 
time and be able to show that we have real-time connectivity to 
be able to share this information. Then, in September, it will 
be exercised in a warfighting exercise that is hosted by the 
Netherlands to bring in the warfighters to actually use this.
    So those are the concrete steps we are taking to be able to 
bolt on whatever NATO comes up with, with our U.S. long-range 
proposal.
    General Campbell. Sir, we have also run a series of war 
games called Nimble Titan. It will be run in May with the 
allies. It talks of the concepts in the command and control; 
after you bolt these systems together, how do we actually work 
it, nation to nation?
    Mr. Reyes. Are there any other technical challenges 
associated with getting both the U.S. and NATO systems to work 
together?
    General Obering. I am sure there will be, sir, but in terms 
of the protocols, and in terms of the data formats, and in 
terms of the architecture, I do not think there will be any 
severe show-stoppers. Because when we designed our system, the 
C2BMC system, we did that with the NATO architecture in mind. 
So we did that with knowledge aforethought to be able to do 
that.
    Mr. Reyes. What about any financial implications, though, 
involved with that?
    General Obering. The integration cost would, obviously, be 
shared between the U.S. and NATO, but we have, in fact, planned 
for that integration as part of our program.
    Mr. Reyes. Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Reyes.
    Mr. Everett.
    Mr. Everett. I am going to allow Mr. Franks to ask that 
question so I will not be putting us into a third round.
    Ms. Tauscher. Okay.
    Mr. Franks.
    Mr. Franks. Thank you, Madam Chair.
    And I thank the ranking member.
    Dr. McQueary, I have just one technical question up front 
here. What is your assessment of the technical risk of 
developing a two-stage variant from the existing three-stage 
GBI?
    Dr. McQueary. Our assessment, having examined that in some 
detail, is low risk. This approach has been used before, not 
for this particular rocket, but it has been used before. As we 
look at the changes being made, we view the changes being low 
risk. However, we do feel strongly that testing needs to be 
done in order to verify that that risk is, indeed, low.
    Mr. Franks. That is great.
    General Obering, you indicated sometime back that you and 
Mr. Young were exploring what was a pretty exciting concept for 
the Space Tracking and Surveillance System.
    Can you talk about the STSS, and the direction in which it 
is going?
    General Obering. Yes, sir. There are some parts that are 
classified that I will not, but I will be able to do it, for 
the most part.
    We are going to launch two Space Tracking and Surveillance 
demonstration satellites this year. We are on track to do that. 
These are part of the legacy components that used to be known 
as SBIRS-Low that we have refurbished and that we modified and 
modernized. We are on track to launch those.
    That will show us whether or not we can actually do this 
function. That is critical. That is a critical knowledge point, 
because space is a harsh environment. Can we actually do the 
precision? Can we do the precision tracking in those 
environments and then relay that information, in a timely 
enough fashion, to the ground to be able to show that it is 
useful?
    Once we have done that, though, we do not envision building 
any more of these legacy types of satellites. We have looked at 
what is going on in the industry at large, what are some of the 
advances in the industry that we can take advantage of, and 
then that we can use in a novel approach to be able to reduce 
the size of a constellation that we would need. Think about the 
layers of terrestrially based sensors that we already have, and 
come up with some innovated acquisition approaches based, 
again, on our knowledge-point layout.
    I was discussing this with Secretary Young, and he 
recognized this as an approach that he had actually outlined 
several years ago for this program as a direction to go that I 
was even unaware of.
    Mr. Franks. General, you mentioned a knowledge point. I am 
going to shift gears completely with you.
    You know that I have said to you privately, that I believe 
that the laser is to missile defense, what the microchip was to 
the computer industry. I think, in terms, that may be decades 
away, perhaps none of us in this room will ever see the full 
combination, and that that could have the profoundest kind of 
defensive capability for future generations.
    Just related to the knowledge points of ABL, where are you 
on that? What is happening? I understand you are going to try 
to do a lethal shootdown maybe late next year?
    General Obering. Yes, sir, in 2009.
    As I said, it has completed all of the knowledge points 
that we needed to show performance with margin to be able to 
shoot down the missile.
    As for some of the things that we are doing right now, we 
have installed the laser modules; we are installing the 
plumbing; we had to do some refurbishment on the optics control 
chain. When I say ``refurbishment,'' what I really mean is we 
wanted to improve some of the behavior in the optics control 
chain that we saw.
    We also wanted to improve the efficiency of the laser 
modules, themselves, in some of the nozzle designs of the 
injector of the iodine in the laser modules. So we have now 
done that; we have reinstalled those modules. Now we are just 
going through the myriad of parts that go back on that aircraft 
to be able to do this.
    Then, later this year or at the beginning of next year, we 
will begin to fire the laser out the nose of the aircraft into 
a calorimeter to determine are we, in fact, achieving the power 
and the durations that we want to achieve in the laser. If we 
are successful, then we go back in the air, and we begin a 
series of tests leading to the shootdown of a boosting missile.
    Mr. Franks. Well, I sure wish you the best of luck on that. 
It must be hard knowing that somebody else might end up getting 
to oversee that, but I guess it will always be your baby, huh?
    The program called Left Hook, related to the Aegis 
capability intercept missiles in their boost phase, what can 
you tell us about that in this environment?
    General Obering. There was a proposal that was floated a 
couple of years ago about looking to see whether or not we had 
the ability to shoot down a long-range boosting missile in the 
boost--not in the boost phase, but in the ascent phase, after 
boost, with a current SM-3 1A or with a 1B variant that is 
coming down the pike.
    There was a lot of analysis done, and there is a little 
confusion about this. It could be technically feasible with 
very restrictive parameters, but those restrictive parameters 
make it nonoperational, not very operational. That is the 
problem.
    We saw an example of this in the satellite shootdown. We 
had to very precisely position that ship. Then we had to bring 
off-board information into the ship to be able to even achieve 
this. That information had to be so precise to even have a 
chance of doing this.
    So, could it happen? Yes. But is it operationally realistic 
to expect that we can do that? The answer is no.
    Mr. Franks. I understand.
    Again, congratulations to all of your efforts here.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Franks.
    Dr. McQueary, I need to clarify a little bit about the 
differences between DOT&E and MDA regarding the testing for the 
European site program.
    Dr. McQueary. Yes.
    Ms. Tauscher. Your testimony--oh, actually, it is a report 
that we have from you from October. It says that simply testing 
the new two-stage booster in a flight test, even an intercept 
flight test, is inadequate to assess the operational 
effectiveness of the European deployment of GMD assets. You 
also recommend that MDA conduct three flight tests instead of 
two currently planned and that one of the intercept tests 
included an attempt to track and to intercept multiple long-
range targets simultaneously, for example, a Salvo test.
    Why does DOT&E believe that simply testing the two-stage 
booster is inadequate to assess the operational effectiveness 
of the European GMD assets? Why do you believe that two tests 
are inadequate? Why are you insisting that MDA conduct a Salvo 
intercept test that engages multiple intermediate-range 
targets?
    Dr. McQueary. I believe those are two separate issues, if I 
may address them separately.
    In the three tests that we have recommended for the two-
stage booster, the first test that was going to be conducted 
was a booster verification test. The second test was going to 
be--and there was no live target in that. The second test was a 
live target test. The third test that we are recommending is 
one in which you simulate the actual scenario of engagement 
that one would have in the European theater, because we think 
that is an important issue to be addressed as a part of the 
verification that this system will work in that kind of 
environment.
    We had discussions early this week with General Obering, 
and he just informed me a little earlier today that he has put 
the third test into his test plan. So we have not been reviewed 
with the plan, but it is one of those things where I think 
having an open and candid discussion about what the issues 
are--you know, sound minds--I hope we are sound minds, anyway--
come to a conclusion that is the right one.
    Ms. Tauscher. That is good news.
    I think Mr. Larsen has a very quick question.
    Mr. Larsen. Yes, I do, Madam Chair. It is for General 
Obering.
    If you could just cover for the committee--we were in Japan 
in January, discussing the potential cooperation with Japan on 
the issue of command and control that had come up with missile 
defense. Can you provide any update on where those discussions 
are?
    General Obering. Yes, sir. Obviously, that discussion is 
being led by the United States, the forces of Japan, and 
Pacific Command (PACOM). They are the ones that are the lead on 
that. We helped to inform those technically, in terms of what 
is possible and what we can do. We certainly have the ability, 
and we intend to be able to, share information.
    There is the radar that we have placed in Japan, what we 
call the Transportable Radar (TPY)-2 forward-based radar. That 
data will be made available to the Japanese forces. That 
includes the Aegis, Patriot, and other systems that they are 
procuring or codeveloping with us for now and for the future.
    Also, they have a series of radars that will be feeding 
data into their command and control system. We would like to be 
able to share that data, as well. So, in addition, we have laid 
out a series of exercises to, kind of, think through what that 
would be. When I say ``we,'' I mean the United States and Japan 
are doing that.
    So we are very optimistic there, in terms of that. It has 
been a very healthy cooperation; it has been a very robust 
cooperation. In fact, Japan is spending $1.5 billion, roughly, 
a year in missile defense, and it has been a pleasure to work 
with them as partners.
    Mr. Larsen. That is fair. Thank you.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Secretary Young, in 2006, the Department of Defense Office 
of Program Analysis and Evaluation conducted a review examining 
the potential effectiveness of ABL and KEI to perform the 
boost-phase defense mission.
    We would like the Department to provide us a briefing on 
that study. Is that something that you can do?
    Secretary Young. I don't see why not. It would be my 
inclination to do it. Actually, before the hearing, I had sent 
an e-mail and had asked Mr. Berkson to make sure that would be 
available. I don't know if the study needs to be updated, but 
my view is we will provide that.
    Ms. Tauscher. That would be great. Thank you.
    The subcommittee is joined by Mr. Lamborn from Colorado, 
who is not a member of the subcommittee, but who is a member of 
the full committee. We would like to offer him five minutes for 
questions.
    Mr. Lamborn. Thank you for your indulgence, and thank you 
to the other members of the committee for indulging me in this 
also. I appreciate that.
    Secretary Young and General Obering, I understand that MDA 
plans to launch the two Space Tracking and Surveillance and 
tracking demonstration satellites this November. I also 
understand that MDA is restructuring its plans as far as 
follow-on with that.
    What are the key lessons that you hope to learn from the 
two demonstration satellites? How will those lessons be 
incorporated into the proposed follow-on constellation 
satellites?
    General Obering. Well, first of all, the mission of those 
satellites is to be able to use an acquisition sensor, and then 
a tracking sensor to be able to pick up targets that we will 
launch and to be able to track those through space, through 
their midcourse phase, and to be able to generate an accurate 
enough track that we could actually place that information into 
a weapons task plan and inject that into a Ground-based 
Midcourse interceptor, or put it into an Aegis weapons system 
to be able to launch one of the future 21-inch, longer-range 
interceptors from a ship and to understand if we can actually 
do that in the space environment.
    Because there are many hazards that we have to worry 
about--the radiation belt, that type of thing, how is it going 
to perform in those environments. That is what we are looking 
for, the lessons learned from that.
    We also are going to have a crosslink, data link, between 
the two satellites to see. Because, in a constellation, you are 
going to have to have that crosslink to be able to do this 
handover between satellite to satellite for the tracking. We 
will test that. That is why we wanted to have two, by they way, 
as opposed to just one satellite.
    By the way, we are also going to launch them tandemly, so 
they are both going to be on the same launch vehicle when we do 
this launch, to be able to place them where we want them in 
orbit.
    We do not envision that this is the configuration of the 
satellite that we need. It is big. It is bigger than we want. 
It weighs more than we want. We would like to be able to drive 
down some of the weight requirements, or to inject some of the 
more modern technology, because these birds go back a long way. 
Many of you have known this for many years. So we want to be 
able to inject some of the more modern technology into a 
follow-on constellation.
    We believe that we can significantly--by changing the 
orbitology and by injecting the technology I talked about, we 
believe that we can significantly reduce the number of these 
satellites, and consequently, the cost and the weight that we 
have to place on-orbit for those.
    Mr. Lamborn. Do you have anything to add, Secretary Young?
    Secretary Young. I guess I would offer a bigger picture, or 
perspective. That is, we have had a number of space programs 
that have met varying challenges. I think General Obering is 
exactly right on the details. It has been true for some time. 
He was kind enough to note my role. Really, I think MDA's role 
was the starting point.
    That is, if you have lower earth-tracking capability, you 
can get better sensitivity, and you can get better 
discrimination. You can do a lot of things, including 
potentially fire on the space-based cue. That is an incredible 
capability. It can augment our warning and help us in many 
other ways throughout the Nation. It is probably bigger than 
missile defense.
    So, the demonstration satellites are important knowledge 
points for people in an area where we tend to be conservative 
to get that information and then to march forward to see what 
we can do in terms of newer satellites, but to be careful that 
we control the cost of that, and be very careful because I do 
not want to have another space program that has problems. I 
want to deliver that capability so that you all, and the 
warfighter have confidence in it.
    Mr. Lamborn. Thank you.
    General Obering, last year, this committee expressed its 
strong desire that KEI be restored as originally conceived, as 
a fully mobile weapons system. I also understand that you 
recently suggested that our successful satellite shootdown 
shows that missile defense--well, it still needs to be more 
robust in the sea-based and land-mobile interceptor phases.
    Do you think KEI needs to be accelerated to provide this 
more robust capability? What steps are you taking to ensure 
that we are moving forward?
    General Obering. Yes, sir. Well, first of all, we had 
limited the KEI to a booster program only because, in light of 
the congressional reductions in the years before where it was 
having trouble getting on its feet, we did not want to give up 
the knowledge point. So we reduced the program down to 
demonstrate that very high-acceleration booster flight to 
maintain that knowledge point, because that is what it brings 
to the fight in terms of capability.
    We heard the message from Congress last year, so I 
instructed the program office to begin the planning for both 
boost- and midcourse-phase capabilities--options, so to speak, 
for the future. Still, in keeping with our discipline, we do 
not want to immediately go out and hire hundreds of engineers 
and program office--I mean, contractor folks for the program, 
when they have not demonstrated that knowledge point. 
Otherwise, we start going back against what Secretary Young 
wants to do for the Department.
    What we have been trying to do in the portfolio is to make 
sure that we demonstrate the technical capabilities that we 
need from these programs before we build these very large-
standing armies that begin to drive up the cost of these 
programs. So we are going to adhere to that in terms of being 
able to show that knowledge point. If they do, then we can put 
them on their way with respect to full-blown acquisition.
    Mr. Lamborn. Thank you, General.
    Thank you, Madam Chairman.
    Ms. Tauscher. You are welcome, Mr. Lamborn.
    Gentlemen, thank you very much for very good testimony. We 
appreciate your time for all of the questions.
    Members, if you have questions to submit for the record, 
please feel free to do so.
    We also want to thank your staff. I would like to, on 
behalf of the subcommittee, thank our professional staff, led 
by Bob DeGrasse, Rudy Barnes, Frank Rose, and Kari Bingen, for 
their very hard work. They are just excellent.
    Thank you for informing the subcommittee and for being 
willing to be here. We look forward to seeing you again soon. 
Thank you.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 17, 2008

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 44316.001
    
    [GRAPHIC] [TIFF OMITTED] 44316.002
    
    [GRAPHIC] [TIFF OMITTED] 44316.003
    
    [GRAPHIC] [TIFF OMITTED] 44316.004
    
    [GRAPHIC] [TIFF OMITTED] 44316.005
    
    [GRAPHIC] [TIFF OMITTED] 44316.006
    
    [GRAPHIC] [TIFF OMITTED] 44316.007
    
    [GRAPHIC] [TIFF OMITTED] 44316.008
    
    [GRAPHIC] [TIFF OMITTED] 44316.009
    
    [GRAPHIC] [TIFF OMITTED] 44316.010
    
    [GRAPHIC] [TIFF OMITTED] 44316.011
    
    [GRAPHIC] [TIFF OMITTED] 44316.012
    
    [GRAPHIC] [TIFF OMITTED] 44316.013
    
    [GRAPHIC] [TIFF OMITTED] 44316.014
    
    [GRAPHIC] [TIFF OMITTED] 44316.015
    
    [GRAPHIC] [TIFF OMITTED] 44316.016
    
    [GRAPHIC] [TIFF OMITTED] 44316.017
    
    [GRAPHIC] [TIFF OMITTED] 44316.018
    
    [GRAPHIC] [TIFF OMITTED] 44316.019
    
    [GRAPHIC] [TIFF OMITTED] 44316.020
    
    [GRAPHIC] [TIFF OMITTED] 44316.021
    
    [GRAPHIC] [TIFF OMITTED] 44316.022
    
    [GRAPHIC] [TIFF OMITTED] 44316.023
    
    [GRAPHIC] [TIFF OMITTED] 44316.024
    
    [GRAPHIC] [TIFF OMITTED] 44316.025
    
    [GRAPHIC] [TIFF OMITTED] 44316.026
    
    [GRAPHIC] [TIFF OMITTED] 44316.027
    
    [GRAPHIC] [TIFF OMITTED] 44316.028
    
    [GRAPHIC] [TIFF OMITTED] 44316.029
    
    [GRAPHIC] [TIFF OMITTED] 44316.030
    
    [GRAPHIC] [TIFF OMITTED] 44316.031
    
    [GRAPHIC] [TIFF OMITTED] 44316.032
    
    [GRAPHIC] [TIFF OMITTED] 44316.033
    
    [GRAPHIC] [TIFF OMITTED] 44316.034
    
    [GRAPHIC] [TIFF OMITTED] 44316.035
    
    [GRAPHIC] [TIFF OMITTED] 44316.036
    
    [GRAPHIC] [TIFF OMITTED] 44316.037
    
    [GRAPHIC] [TIFF OMITTED] 44316.038
    
    [GRAPHIC] [TIFF OMITTED] 44316.039
    
    [GRAPHIC] [TIFF OMITTED] 44316.040
    
    [GRAPHIC] [TIFF OMITTED] 44316.041
    
    [GRAPHIC] [TIFF OMITTED] 44316.042
    
    [GRAPHIC] [TIFF OMITTED] 44316.043
    
    [GRAPHIC] [TIFF OMITTED] 44316.044
    
    [GRAPHIC] [TIFF OMITTED] 44316.045
    
    [GRAPHIC] [TIFF OMITTED] 44316.046
    
    [GRAPHIC] [TIFF OMITTED] 44316.047
    
    [GRAPHIC] [TIFF OMITTED] 44316.048
    
    [GRAPHIC] [TIFF OMITTED] 44316.049
    
    [GRAPHIC] [TIFF OMITTED] 44316.050
    
    [GRAPHIC] [TIFF OMITTED] 44316.051
    
    [GRAPHIC] [TIFF OMITTED] 44316.052
    
    [GRAPHIC] [TIFF OMITTED] 44316.053
    
    [GRAPHIC] [TIFF OMITTED] 44316.054
    
    [GRAPHIC] [TIFF OMITTED] 44316.055
    
    [GRAPHIC] [TIFF OMITTED] 44316.056
    
    [GRAPHIC] [TIFF OMITTED] 44316.057
    
    [GRAPHIC] [TIFF OMITTED] 44316.058
    
    [GRAPHIC] [TIFF OMITTED] 44316.059
    
    [GRAPHIC] [TIFF OMITTED] 44316.060
    
    [GRAPHIC] [TIFF OMITTED] 44316.061
    
    [GRAPHIC] [TIFF OMITTED] 44316.062
    
    [GRAPHIC] [TIFF OMITTED] 44316.063
    
    [GRAPHIC] [TIFF OMITTED] 44316.064
    
    [GRAPHIC] [TIFF OMITTED] 44316.065
    
    [GRAPHIC] [TIFF OMITTED] 44316.066
    
    [GRAPHIC] [TIFF OMITTED] 44316.067
    
    [GRAPHIC] [TIFF OMITTED] 44316.068
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Secretary Young and General Obering, I understand 
that the United Arab Emirates (UAE) is interested in potentially 
purchasing several THAAD fire units. Could you provide us an update on 
the status of that potential sale? How many THAAD fire units and 
interceptors would be involved with the sale? Who would be the 
executive agent for this sale? MDA, the Army? Will the potential sale 
of THAAD help reduce the overall cost of the system? What are the key 
technology security issues associated with the potential sale to UAE?
    Secretary Young. Currently, the Congressional notification has been 
signed by the State Department and is awaiting completion of the pre-
consultations with the House Foreign Affairs Committee and Senate 
Foreign Relations Committee staffs. Once the pre-consultations are 
complete, the State Department will forward the Section 36(b) 
notification to Congress for a 20-day informal and then a 30-day formal 
notification. The Missile Defense Agency (MDA) is working on 
information for the Letter of Offer and Acceptance (LOA). After the 
Congressional notification process is complete, MDA will work with 
Army, the Implementing Agency, to complete the LOA process. This sale 
will involve a total of three (3) THAAD Fire Units (FU) plus an 
additional float radar, and will include one hundred and forty-four 
(144) interceptors in total.
    The Army will be the Implementing Agency for the UAE THAAD Foreign 
Military Sales case. The United States will expect cost savings as the 
number of THAAD fire units and spare interceptors increases. These 
increased production order quantities will mitigate production gaps and 
enable a reduction in average unit interceptor costs. With the 
appropriate anti-tamper measures in place on U.S. military systems 
provided or sold to a foreign partner, the United States can ensure 
that technologies are protected against compromise and reverse 
engineering.
    Ms. Tauscher. Secretary Young, in its March 2008 report on the 
missile defense program, the Government Accountability Office (GAO) 
stated that while the Missile Defense Executive Board (MDEB) ``has some 
oversight responsibilities, the MDEB was not established to provide 
full oversight of the BMDS program & it will not receive some 
information that Defense Acquisition Board (DAB) relies on to make 
program recommendations, and in other cases, MDA does not plan to seek 
the MDEB's approval before deciding upon a course of action.'' Was the 
MDEB established to provide full oversight of MDA like the DAB provides 
to other defense acquisition programs? Will the MDEB receive all of the 
same information that the DAB receives? If not, why? Will MDA seek the 
MDEB's approval prior to initiating a new block?
    Secretary Young. The Missile Defense Executive Board (MDEB) was 
established to recommend and oversee implementation of strategic 
policies and plans, program priorities, and investment options to 
protect our Nation and allies from missile attack. The MDEB authorities 
and responsibilities extend to comprehensive oversight of all of the 
Missile Defense Agency's activities including those outside the scope 
of the traditional milestone review process for individual programs 
(e.g., assessments and potential influence on policy, threat 
assessments, capability requirements, budget formulation, and fielding 
options). Committees supporting the MDEB regularly examine detailed 
topics in these areas of interest. Within the MDEB forum, I am able to 
pursue an agenda that examines these topic areas and any other that 
enhances Ballistic Missile Defense System development and fielding. The 
MDEB meets more frequently than the DAB would meet for a typical 
program. Under my leadership, the MDEB will meet six times a year, or 
more often when necessary, to address appropriate Missile Defense 
Agency oversight topics. The MDEB, similar to the DAB, has and will 
receive appropriate information to facilitate decision-making. The 
Missile Defense Agency will present new block information to the MDEB 
prior to initiation. I have and plan to continue to use the MDEB in a 
decision-making manner which will be very comparable to the DAB role. 
Already, I have issued decision memorandums providing direction to MDA 
based on the detailed briefings and discussions completed in the MDEB.
    Ms. Tauscher. Secretary Young, I'm interested in the role that the 
Missile Defense Executive Board is playing with regard to the 
development of the Missile Defense Agency's (MDA) annual budget 
requests. What role did the MDEB play in the development of MDA's FY09 
budget request? Was MDA's FY09 budget merely briefed to the MDEB, or 
did the MDEB play a major role developing the budget? What role do you 
envision the MDEB playing in the development of MDA's FY10 budget?
    Secretary Young. The Missile Defense Executive Board (MDEB) was 
informed of the Missile Defense Agency's Fiscal Year 2009 budget, but 
did not play a role in budget development. For Fiscal Year 2010, the 
process is different. The MDEB has and will continue to review the 
planning factors and resulting funding allocations for MDA's budget. As 
a result of the last two MDEBs, I signed Acquisition Decision 
Memorandums to endorse and redirect specific planning decisions for 
continued budget development. The MDEB will remain involved in budget 
development as part of the Program Review.
    Ms. Tauscher. Secretary Young, the January 2, 2002, Missile Defense 
Program Guidance signed by then Secretary of Defense Rumsfeld states 
that ``BMDS elements will enter the formal DOD acquisition cycle at 
Milestone C, concurrent with Service procurement and responsibility 
transfers.'' A number of missile defense systems such as Aegis BMD and 
THAAD seem to have reached a maturity consistent with Milestone C. 
What's the Department's specific criteria for determining when a 
specific missile defense element has reached Milestone C? Who makes 
that decision? OSD, MDA, the Services? Is it still the Department's 
plan to transition missile defenses elements back into the normal DOD 
acquisition process when they reach Milestone C? If the MDEB is to play 
a role in the development of the FY10 budget request, what processes do 
you plan to put in place to facilitate that involvement?
    Secretary Young. The Defense Department's current criteria for 
missile defense elements reaching Milestone C includes: an assessment 
of the depth and breadth of preparation including element progress, 
performance validated by testing results, reports by the Director, 
Operational Test and Evaluation, funding to support program plans, and 
an executable plan for operation and support. The recommendation for a 
Milestone C decision would be made by the Missile Defense Agency, in 
conjunction with the designated Lead Service or potentially by 
USD(AT&L) based on a review of the state of program progress and 
maturity. The Milestone C review and decision is the responsibility of 
the USD(AT&L). When Ballistic Missile Defense System elements reach 
Milestone C, the Defense Department intends to transition them into the 
normal Department of Defense acquisition processes that make sense. The 
focus of that decision will be to exercise oversight and control in an 
efficient and appropriate manner. The MDEB has and will continue to 
review the Missile Defense Agency budget preparation factors and 
resulting funding allocations. MDEB direction for Missile Defense 
Agency budget preparation and revision has been documented in two 
recent MDEB Acquisition Decision Memorandums.
    Ms. Tauscher. Secretary Young, section 223 of the Fiscal Year 2008 
National Defense Authorization Act directed MDA to begin using the 
procurement and military construction budget categories with the 
submission of the FY09 budget. In the budget request, MDA did request 
military construction funds, but did not request procurement funds.

        <all>  Please explain why the Department did not specifically 
        request procurement funds as was specifically direct by section 
        223 of last year's defense authorization bill?

        <all>  What steps does the Department plan to take to ensure 
        that its FY10 budget submission is in compliance with the law?

    Secretary Young. Section 223 was enacted into law on January 28, 
2008. The President's budget request was transmitted to Congress one 
week later. The Missile Defense Agency (MDA) feels the Agency had 
insufficient time to incorporate changes to the Fiscal Year (FY) 2009 
President's Budget submission to be consistent with all of the 
requirements of section 223. An existing Program Element was available 
for use in submitting MDA's Military Construction request and the 
request did include Military Construction funds as directed in section 
223. There was, however, no existing Program Element for the MDA 
Procurement request, and MDA was unable to have one established prior 
to transmittal of the budget to Congress.
    Concerning compliance of the Missile Defense Agency's FY2010 
budget, MDA will comply with the requirements of section 223. In 
addition, the Department, through the MDEB will continue to review the 
planning factors and resulting funding allocations for all aspects of 
MDA's FY2010 budget, to include requests for, and execution of, funding 
in each of the appropriations. MDEB guidance has been and will continue 
to be issued in Acquisition Decision Memorandums to endorse and 
redirect specific planning decisions for continued budget development.
    Ms. Tauscher. Secretary Young, what specific role does the Missile 
Defense Executive Board play in determining what types and quantities 
of missile defense systems the Missile Defense Agency will procure?
    Secretary Young. The Missile Defense Executive Board's (MDEB) 
Operational Forces Committee is chaired by the Vice Chairman of the 
Joint Chiefs of Staff and is composed of other principal members of the 
JROC. The MDEB relies on the Operational Forces Committee to review and 
prioritize Ballistic Missile Defense System (BMDS) requirements, 
integrate those current Department priorities, and provide 
recommendations. The Policy Committee has reviewed possible threat 
expansion, and will continue to influence Ballistic Missile Defense 
priorities and MDEB deliberations regarding deployment capabilities. 
The MDEB integrates the committee inputs and the Missile Defense Agency 
(MDA) implementation plans to endorse specific element quantities. For 
example, the Joint Staff presented an analysis and recommendation for 
additional acquisition of THAAD and SM-3 missiles. The MDEB reviewed 
the study, the recommendations, and MDA execution plans. The result was 
a decision to acquire the additional missiles that is documented in an 
Acquisition Decision Memorandum.
    Ms. Tauscher. Dr. McQueary, the Cobra Dane radar would play a key 
role in any potential engagement of a North Korean long-range ballistic 
missile threat heading toward the United States. In the FY07 DOT&E 
annual report you stated: ``Performance estimates for Cobra Dane are 
limited to ground tests results. These estimates rely on models and 
simulations that are not yet validated and accredited for use in 
operational evaluations. This will require MDA to fly another target 
through the Cobra Dane field of view.'' What level of importance do you 
attach to having MDA fly another target through the Cobra Dane radar 
field of view to verify the software fixes made to the radar as a 
result of the test in FY06? Can you adequately assess the operational 
capability of the Cobra Dane radar without another flight test? MDA 
doesn't currently plan to conduct another test before FY10. Do you 
agree with MDA's decision?
    Dr. McQueary. We observed some performance issues from the first 
flight test across the face of the Cobra Dane radar that the model did 
not predict. I believe it is important for MDA to again fly a target 
across Cobra Dane's field of view. Another fly-by test is necessary for 
verifying that all the fixes have been made correctly and allow for 
verifying and validating the updated model, which can then be used 
confidently in predicting Cobra Dane performance. This approach tracks 
well with General Obering's ``test-analyze-fix-test'' approach. It will 
also allow the MDA to verify and validate the updated model which is 
used in ground testing and wargaming.
    In the interim, we can assess Cobra Dane performance based on the 
original flyby, targets of opportunity observed by the radar, and 
ground testing conducted by the MDA. Our confidence will remain low 
until the fixes to the Cobra Dane model can be verified and validated 
with a dedicated flyby.
    Although I would like to see the test sooner, as long as the fixes 
are installed, this test is not as high a priority as most of the other 
flight tests already scheduled during the next few years. Since MDA 
plans to utilize data from ballistic missile flights across Beale, 
Fylingdales, and Thule radars to augment the assessment of the expected 
behavior of Cobra Dane, it may actually be prudent to wait to conduct 
another fly-by test after the MDA has made planned improvements in 
radar discrimination capability.
    Ms. Tauscher. Dr. McQueary, MDA recently agreed to DOT&E's 
recommendation for a third flight test of the two-stage GMD 
interceptor. According to DOT&E's European Test Concept, the third test 
should track ``and intercept multiple threat representative 
intermediate-range targets from air launched platforms along with a 
long-range threat representative target launched from Kodiak Island. 
Interception of both the intermediate range targets by the new 
interceptors and the long-range threat simulated by two and three-stage 
interceptors (sim-over-live).'' Does MDA plan to follow DOT&E's 
specific recommendations for the third test of the two-stage 
interceptor (i.e., multiple intercepts)? From DOT&E's perspective, what 
are the risks if MDA does not follow those recommendations?
    Dr. McQueary. The European GMD mission will be very challenging. 
MDA has agreed to add a third test, but the details are still to be 
determined. The third flight test I proposed is a very difficult test 
and may need innovative approaches due to range safety and support 
constraints. We have been meeting regularly with the MDA to refine the 
European Test Concept to ensure the tests provide sufficient data to 
assess mission capability. I am confident that we will reach agreement 
with the MDA on a mutually acceptable flight test approach to evaluate 
the European mission.
    Our assessment of risk needs to be based on an actual plan, which 
is still being developed. A flight test campaign that progressively 
examines more of the mission battlespace and adds additional modeling 
and simulation validation data is a sound method to gain confidence in 
increasingly complex and challenging mission scenarios. This will be a 
primary objective in our on-going discussions with MDA.
    Ms. Tauscher. Dr. McQueary, DOT&E's FY2007 Assessment of the 
Ballistic Missile Defense System raised a number of concerns about the 
GMD program. Page 32 of the report states: ``Limited flight test data 
(two intercepts in four years), limited operational realism (target 
scene presentations), and lack of independent accreditation of models 
and simulations impaired test adequacy. As a result, confidence in the 
system performance predictions based on models and simulations is 
low.'' Dr. McQueary, do you have a high degree of confidence that the 
GMD system will work in an operationally effective manner? What 
specific steps need to occur in order to increase your confidence in 
the effectiveness of the GMD program?
    Dr. McQueary. FTG-02 and FTG-03a demonstrated that the GMD has a 
capability to intercept a ballistic missile threat without 
countermeasures in limited operationally realistic conditions. 
Unfortunately, we cannot explore a significant portion of the 
battlespace with only two flight tests. While my confidence in the 
system performance predictions is, at this time, low, MDA is working 
diligently with the BMDS Operational Test Agency Team to provide 
verified, validated, and accredited models and simulations that are 
needed.
    To increase my confidence in the effectiveness of the GMD program, 
I need MDA to complete development of the models and simulations that 
accurately replicate BMDS performance and to complete a minimum number 
of flight tests to verify, validate, and accredit them. These models 
will also allow analyzing areas of the performance envelope that may be 
impossible due to safety or environmental reasons. This past year, the 
MDA began an earnest effort to provide models and simulations that 
could be verified, validated, and accredited to meet our needs to 
evaluate BMDS capability. The BMDS Operational Test Team provided the 
MDA with recommendations and guidance to improve their verification, 
validation, and accreditation process and MDA is incorporating these 
recommendations. The MDA recognizes the importance of this effort and 
is providing the resources to be successful. It will not be easy or 
quick; but it is necessary for all of us to have confidence in the 
effectiveness of GMD.
    Ms. Tauscher. Dr. McQueary, page 42 of DOT&E's FY2007 Assessment of 
the Ballistic Missile Defense System states: ``MDA had insufficient 
funding for conducting all the flight tests that THAAD had included in 
its schedule; consequently, the MDA re-baselined the THAAD flight test 
program to minimize the cost impact. The end result of the re-baseline 
is a flight test program with more risk, increased production risk, and 
a total cost impact of $180.0 million.'' Does it remain your view that 
MDA's re-baseline of the THAAD test program has increased risk to the 
THAAD program? What specific steps would you recommend for reducing 
risk for the THAAD test program?
    Dr. McQueary. The re-baseline of the THAAD test program has 
increased risk to the THAAD program. The removal of three of the 
seventeen flight tests, combined with the loss of data from FTT-04 as 
the result of the target failure, means fewer opportunities to 
demonstrate repeatability of performance, which raises risk and lowers 
confidence in any future assessments. However, it should be noted that 
the thirteen remaining flight tests are designed to challenge the 
system and have the potential to provide the data necessary to anchor 
MDA systems performance models and simulations. As it stands today, any 
loss of flight test data will likely require additional flight tests to 
achieve the prescribed knowledge points for THAAD.
    To avoid any additional risk to the THAAD program, I recommend that 
the MDA not eliminate any additional tests from the flight test 
program. I also recommend that the MDA repeat any unsuccessful flight 
tests and conduct the remaining flight tests in a manner that achieves 
all test objectives to adequately verify, validate, and accredit the 
models and simulations.
    Ms. Tauscher. Dr. McQueary, DOT&E's FY2007 Assessment of the 
Ballistic Missile Defense System states that ``overall, FY07 THAAD 
testing was adequate and sufficient.'' However, the report raised 
concerns about MDA's ability to deliver targets for the THAAD program 
in a timely manner, stating that ``further reduction of the THAAD 
flight test program or simplification of targets would severely impair 
the assessment of THAAD capabilities.'' Is this still your view? Are 
you satisfied with MDA's ability to provide targets to the THAAD 
program?
    Dr. McQueary. It is still my view that further reductions in the 
THAAD flight test program or simplification of targets would severely 
impair the assessment of THAAD capabilities. Any more reductions or 
failures would mean fewer opportunities to demonstrate repeatability of 
performance which raises risk and lowers confidence in any assessments 
we will make in the future.
    I am satisfied the MDA is working hard within the funding and 
safety limitations of the current test program to meet target 
requirements for the THAAD program. I recommend MDA continue to involve 
warfighter representatives and operational testers when considering 
programmatic adjustments that implicitly or explicitly change 
requirements.
    Ms. Tauscher. Dr. McQueary, the Airborne Laser is scheduled to 
conduct a lethal shoot-down demonstration in September 2009. From 
DOT&E's perspective, will that test provide your office enough 
information to certify that the ABL program is operationally effective, 
suitable, or survivable? If not, what specific capabilities would you 
have to see ABL demonstrate before you were in a position to determine 
this?
    Dr. McQueary. The shoot down demonstration is important to 
demonstrate theory, but as a technology demonstrator it was not 
intended to demonstrate that the ABL program is operationally 
effective, suitable, or survivable. A comprehensive ground and flight 
test program that includes verified, validated, and accredited models 
and simulations is required. Along with this information, any decisions 
must include a thorough analysis of the suitability and survivability 
while considering affordability.
    To demonstrate ABL operational effectiveness following the 
September 2009 demonstration, the MDA will need to design and execute a 
comprehensive ground and flight test campaign that includes verified, 
validated, and accredited models and simulations that test and evaluate 
shoot down capability of a representative cross section of threat 
missiles in the full mission battlespace of the laser system. Such a 
campaign should demonstrate repeatability to strengthen confidence in 
demonstrated performance. To demonstrate suitability, the test program 
must collect sufficient data to use in the models and simulations to 
accurately predict performance and focus on Reliability, Availability, 
and Maintainability. To demonstrate survivability, the MDA, in 
conjunction with the warfighters, must accomplish a system-level 
vulnerability assessment and implement hardware changes and operating 
procedures, if needed, to achieve a mutually acceptable level of 
survivability.
    Ms. Tauscher. Dr. McQueary, the Missile Defense Agency recently 
decided to cancel FTG-04 and merge the requirements of that test into 
FTG-05 and FTX-03. What role did DOT&E play in MDA's decision to cancel 
FTG-04? Does DOT&E support MDA's decision to remove a GMD flight test? 
What impact will the cancellation of FTG-04 have on MDA's ability to 
validate and anchor its models?
    Dr. McQueary. DOT&E was not consulted before the MDA canceled FTG-
04. The MDA initially informed us that FTG-04 would slip to November 
and asked us to provide comments on a possible sensor-only (FTX) flight 
test using the FTG-04 target. We recommended that the FTX be 
accomplished as risk reduction for the planned FTG-04 and FTG-05 flight 
tests, and as an important opportunity to collect Models and 
Simulations (M&S) verification and validation data on sensor 
correlation and fusion, a first for the BMDS. We qualified our 
recommendation by stating that the FTX would only be valuable if all 
four key sensors--the Aegis Ballistic Missile Defense (BMD) Long Range 
Search & Track (LRS&T) radar, the AN/TPY-2 Forward-Based (FB) radar, 
the Sea-Based X-band (SBX) radar, and the Beale Upgraded Early Warning 
Radar (UEWR)--would be in place and on line, and if target correlation 
could be attempted through the GMD Fire Control (GFC) and/or the 
Command, Control, Battle Management, and Communications (C2BMC) 
systems. One week later, after we delivered our recommendation on the 
FTX, the MDA informed DOT&E that a decision had been made to cancel 
FTG-04 and conduct a modified FTG-05 in its place in November 2008.
    At this stage in the GMD program, DOT&E cannot support the 
elimination of any GMD flight test. With the limited number of GMD 
intercept tests completed to date, there is insufficient data to verify 
and validate the required models and simulations. Cancellation of an 
intercept test eliminates an opportunity to gather these important 
data. Given the instrumentation issues that precluded a GMD intercept 
flight test this summer, the FTX will afford an opportunity to examine 
the multi-sensor data fusion capability to generate a weapons task plan 
without expending an interceptor.
    The FTX-03/FTG-05 sequence makes good use of available assets; 
however, this flight test sequence cannot fully replace FTG-04 and the 
important intercept data it would have produced. In the future, 
additional operationally realistic, multi-sensor intercept tests will 
be needed to gather end-game intercept data where confidence is most 
lacking. These intercept data will build confidence in system 
performance and demonstrate reliability. In subsequent discussions, MDA 
committed to adjusting the FY09 and beyond test program to ensure we 
collect the intercept data needed to do just that.
    Ms. Tauscher. Dr. McQueary, the lack of reliable targets seems to 
have become the pacing item of MDA's testing program. Are you satisfied 
with the actions MDA has taken to date to rectify the shortfalls with 
its targets programs? Do you have any specific recommendations for 
improving the targets program?
    Dr. McQueary. I am not sure there is much the MDA can do in the 
short term to fix the problems it is experiencing with its BMDS 
targets. The older targets are less reliable and have impacted both GMD 
and the Terminal High Altitude Area Defense (THAAD) system. The targets 
experienced complete failures for FTG-03 (GMD) and FTT-04 (THAAD). To 
achieve the required performance, targets have necessarily become more 
complex. Problems with these more complex targets have impacted testing 
for sensors, particularly THAAD. The targets experienced partial 
failures during radar data collection (RDC) event RDC-1c and RDC-1d 
resulting in missed developmental data for the THAAD radar. These four 
failures occurred during 20 flight tests over a recent 18-month period 
beginning in September 2006. Developing these complex targets has 
resulted in scheduling delays affecting both GMD and THAAD. We have 
observed that increasing costs have impacted schedules and scope of 
testing as well, particularly with THAAD. The answer may be the 
Flexible Target Family (FTF) that the MDA is developing. Unfortunately, 
the FTF is a longer-term solution. I don't see any good short term 
solution other than what MDA is doing.
    Target issues are not just an MDA problem. Targets are a 
Department-wide problem affecting ground, sea, and air programs, both 
for acquisition and training. The targets we need to adequately test 
the systems we are acquiring are nearly as sophisticated and costly as 
the threats they are trying to replicate and the weapons we are 
developing to counter them. A number of studies are underway by MDA, 
the Government Accountability Office, and my office to look at this 
problem and possible solutions for MDA. The goal is to develop 
actionable recommendations from these studies.
    Ms. Tauscher. Dr. McQueary, page 5 of DOT&E's October 1, 2007, 
European GMD Mission Test Concept, a copy of which your office supplied 
to the committee, states: ``The proposed GMD expansion to the European 
theater has not accomplished system engineering adequate to support the 
development of a test program sufficiently detailed to certify a high 
probability of working in an operationally effective manner.'' Is this 
still your view? The report further states that ``testing of the new 
two-stage booster in a flight test (even an intercept flight test) is 
inadequate to assess the operational effectiveness of the European 
deployment of GMD assets.'' Is this still your view? DOT&E recommends 
that one of the intercept tests include an attempt to track and 
intercept multiple longer-range targets simultaneously, i.e., a salvo 
test. Is this still your view?
    Dr. McQueary. When DOT&E prepared the European Ground-based 
Midcourse Defense (GMD) Mission Test Concept for the MDA, a working 
level concept paper to help the MDA with initial planning 
considerations, the Agency was in the early stages of system 
engineering and it was not possible to develop a definitive mission 
test concept. The DOT&E concept was based on our understanding of the 
European mission and used generic data and calculations to prepare the 
concept paper. However, it is still my view that additional testing of 
the European mission is required.
    There are really two issues with the proposed two-stage booster 
(interceptor): the interceptor itself and the European missile defense 
mission. There are numerous similarities between the two-stage booster, 
its associated launch hardware and software, and the existing three-
stage booster. The MDA has successful experience making this kind of 
modification. These changes can be adequately tested in the two flight 
tests currently proposed by the MDA. The successful completion of the 
European campaign's first two flight tests should enable me to 
recommend that the Secretary certify the successful modification of the 
three-stage interceptor into a two-stage interceptor.
    On the other hand, testing the European mission cannot be 
accomplished with only one intercept flight test. The intercept 
geometries, the timelines associated with them for both decisionmaking 
and intercept, and the complex command & control issues must be 
developed, refined, and tested during both intercept flight tests and 
extensive hardware-in-the-loop ground testing. This ground testing must 
use the actual command, control, battle management, and communications 
architecture in the European theater, and the models and simulations 
must be developed and verified, validated, and accredited before we can 
be confident in our ability to perform the European missile defense 
mission.
    I also think there is a need to demonstrate the capability to track 
and intercept multiple longer-range targets simultaneously. The DOT&E 
concept does include a multiple target engagement using multiple 
interceptors which I believe should still be demonstrated at least once 
during the European Mission GMD flight test program. Rather than a 
salvo test, which is defined as two interceptors on one target, this is 
a multiple simultaneous engagement of two interceptors on two targets. 
We are currently discussing with the MDA the nature of what the third 
test should be.
    Ms. Tauscher. General Obering, the threat from short- and medium-
range ballistic missiles represent a major threat to U.S. interests, 
deployment forces, and friends and allies around the world. The recent 
Joint Capabilities Mix Study II (JCM II) concluded that combatant 
commanders require, at minimum, nearly twice as many THAAD and SM-3 
interceptors than are currently planned to meet this threat. Does the 
Department of Defense plan to implement the recommendations outlined in 
the JCM II? If so, which DOD organization (MDA, Army, Navy etc) will be 
responsible for procuring the additional THAAD and SM-3 inventory?
    General Obering. Yes. MDA has briefed the Missile Defense Executive 
Board (MDEB) and the Joint Requirements Oversight Council (JROC) and 
the Deputy Secretary of Defense's Action Working Group (DAWG) on our 
plan to meet the JCM study findings. Adjustments will be reflected in 
the FY2010 budget request.
    MDA is planning to procure the Aegis and THAAD assets as 
recommended by the Joint Capabilities Mix Study (JCM II).
    Ms. Tauscher. General Obering, the Kinetic Energy Interceptor (KEI) 
was designed to be a boost phase interceptor. However, MDA is now 
describing KEI as a midcourse, follow-on to the existing GMD system. 
What is the expected life span of the existing GMD interceptors being 
deployed today? 20 years? 25 years? If this is the case, why are we 
moving forward with a follow-on to the existing GMD system at this 
time? The Joint Capabilities Mix Study II concluded that we have major 
deficiencies in our ability to counter short- and medium-range threats. 
Wouldn't it make more sense to focus our limited resources on 
countering that shortfall instead of investing in another long-range 
interceptor?
    General Obering. The exact lifespan of the GBI is classified but I 
would be happy to provide it to you in a classified forum. However, the 
service life could be extended through stockpile reliability testing, 
refurbishment, and routine maintenance.
    The Agency is not planning on any near term replacements of the GBI 
boosters with KEI boosters. The Agency plan is to pursue GBI booster 
spiral upgrades in close coordination with the KEI booster development 
team. The GBI and KEI boosters provide different and complementary 
capabilities to the BMDS. The MDA Engineering, GM and KI Program 
Offices are developing plans for the coordinated acquisition of common, 
core standards compliant booster avionics for the KEI and future GBI 
capability spirals. This enables us to save significant dollars through 
the integrated development of high cost components needed by both KEI 
and GBI.
    The MDA plan is to efficiently sustain and spiral upgrade the GBI 
while adding new KEI capabilities to the BMDS such as boost phase 
intercept or mobile midcourse.
    The Joint Capabilities Mix study II (JCM II) was conducted by the 
Joint Theater Air and Missile Defense Office (JTAMDO) and was initiated 
as a follow-on to the Joint Capabilities Mix I (JCM I) study. The JCM I 
study identified key decision points required to inform POM 08 and 
explored Upper Tier (SM-3 and THAAD) interceptor sufficiency. JCM II 
study began in May 2006 after the Joint Requirements Oversight Council 
identified gaps in weapons and sensors that JCM II could address. 
Weapons systems considered to fill the gaps included Standard Missile-3 
(SM-3) interceptors and Terminal High Altitude Area Defense fire units.
    The JCM II study was completed in March 2007 and recommended a 
significant increase in the planned number of SM-3 interceptors and 
THAAD fire units to be acquired over the next five years. The Missile 
Defense Agency (MDA) is working with the Missile Defense Executive 
Board (MDEB) and the Department's senior leadership to allocate 
sufficient resources for the acquisition of additional interceptors and 
BMD assets during the POM 10 budgetary process.
    JCM II did not examine potential short-falls in long-range 
interceptors. U.S. intelligence assessments continue to indicate that 
potential adversaries are seeking to develop or acquire longer-range 
systems. This threat trend justifies continued investment in more 
capable and flexible midcourse intercept capabilities.
    Ms. Tauscher. General Obering, over the past year, there has been 
some discussion about the possibility of the Missile Defense Agency 
playing a role in the cruise missile defense mission. What's the status 
of those discussions? What are the specific contributions MDA could 
potentially make to the cruise missile defense mission?
    General Obering. The Joint Requirements Oversight Council (JROC) 
has approved the U.S. Strategic Command (STRATCOM) as the Integrating 
Authority (IA) for Integrated Air and Missile Defense (IAMD). In this 
role, STRATCOM is the advocate for joint warfighter air and missile 
defense needs. Next year, STRATCOM intends to expand their current BMDS 
Prioritized Capability List (PCL) to include IAMD. The HAC-D has 
expressed continued concern over the need for a single organization to 
take responsibility for engineering, architecture and integration of 
IAMD for the homeland. In their FY08 language, they directed the 
Secretary of Defense to provide a report including a plan for 
developing necessary cruise missile defense capabilities and deploying 
and integrating those capabilities into the ballistic missile defense 
systems when feasible. They also directed that ``the plan shall specify 
an organization within the Department of Defense responsible for 
budgeting for and developing an overall architecture definition, 
acquisition planning, integration and testing of recommended deployment 
options, and execution of an acquisition plan.'' In the spring of FY08, 
the Office of the Secretary of Defense (OSD) assigned an action team 
consisting of members from OSD, U.S. Northern Command (NORTHCOM), U.S. 
Strategic Command (STRATCOM), Joint Integrated Air and Missile Defense 
Organization (JIAMDO), MDA, and the Services to address the 
congressional language. The team has held several meetings and is 
developing a series of options and a recommended response to the HAC-D 
request. OSD anticipates that this report will be delivered to the HAC-
D in September 2008.
    MDA's integrated architecture experience with the Ballistic Missile 
Defense System includes direct warfighter interface and communication 
links, interoperability standards, an established systems engineering 
process with an emphasis on system performance, and a process to 
integrate capability through test, building upon knowledge points to 
increase confidence over time. Since many of the integration and 
testing challenges of air and cruise missile defense are mirrored in 
ballistic missile defense, MDA could possibly apply that experience in 
developing a common, integrated cruise missile defense system.
    Ms. Tauscher. General Obering, it was recently announced that the 
United States and the Czech Republic have completed negotiations that 
will allow for the deployment of an X-band radar on Czech territory. 
That said, negotiations with Poland regarding the potential deployment 
of long-range interceptors are on-going. When are we likely to see an 
agreement with Poland regarding the deployment of interceptors? Would 
we consider moving forward with deployment on the X-band radar in the 
Czech Republic without the long-range interceptors in Poland? Would an 
X-band radar in the Czech Republic provide any benefit to missile 
defense systems like Aegis BMD and THAAD, which are designed to counter 
short- and medium-range missile threats?
    General Obering. We are optimistic that an agreement with Poland 
will be completed and ratified by the end of the year. While we remain 
confident that negotiations will succeed with Poland, locating an X-
band radar in the Czech Republic could contribute to the defense of 
NATO and the U.S., so we would plan to move forward. The X-Band Radar 
would benefit the Aegis BMD and THAAD elements by providing a cue- or 
launch-on-remote capability that would increase the defended area and 
probability of engagement success for many scenarios.
    Ms. Tauscher. General Obering, in order to effectively protect 
Southern European territory and population centers against the short- 
and medium-range threat, NATO will require, in addition to point 
defense systems like Patriot PAC-3, wide-area defense capabilities such 
as THAAD and Aegis BMD. Do any NATO countries besides the United States 
currently have any plans to deploy missile defense systems like Aegis 
BMD and THAAD? What actions are you taking to encourage NATO allies to 
pursue these options? Are there any impediments to selling Aegis BMD 
and THAAD to our allies?
    General Obering. A number of European allies have, or are 
acquiring, short-range missile defense systems. The Netherlands, 
Germany, and Greece have Patriot systems. Italy and Germany are engaged 
in a cooperative development program with the United States to develop 
the Medium Extended Air Defense System Program. France is developing 
its own system, and Turkey has requested information for a potential 
purchase of a Patriot system. The Netherlands is very interested in 
acquiring SM-3 missiles to use with its non-AEGIS air defense frigates. 
Additionally, several nations have expressed interest in sea-based 
ballistic missile defense including the United Kingdom, Germany, Spain, 
and Denmark.
    MDA and the Navy are working closely with The Netherlands to 
determine how to integrate the SM-3 missile on its air defense ships. 
We also work in concert with the Office of the Secretary of Defense to 
pursue any security cooperation opportunities that may arise.
    We have a range of missile defense cooperative activities with a 
number of our NATO allies that expose the allies to both BMDS 
capabilities and shorter range missile defense systems. These 
activities include such things as inviting observers to THAAD and AEGIS 
tests, conducting bilateral missile defense table top exercises that 
include the two systems, participation of AEGIS and THAAD assets in 
combined missile defense exercises, and program and capability briefs 
on the two systems.
    There are unique challenges with every country when selling them 
any weapon system. Working via the interagency process, the National 
Disclosure Policy prescribes a process for addressing technology 
transfer and protection concerns. We do not think there would be any 
impediments that we could not overcome should any of our NATO allies 
want to acquire AEGIS or THAAD.
    Ms. Tauscher. General Obering, one of the arguments the Department 
of Defense has used in favor of the European Interceptor Site has been 
that it will provide a ``permanent'' presence, which mobile 
capabilities would not provide. However, the proposed long-range 
interceptors in Poland would not protect Southern Europe from the 
existing short- and medium-range threat from nations like Iran and 
Syria. Does the United States have plans to permanently station short- 
and medium-range defenses in Southern Europe?
    General Obering. Our proposed European Site architecture is 
complementary to the broader NATO Active Layered Theater Ballistic 
Missile Defense (ALTBMD) architecture that will ultimately link the BMD 
assets of partner nations for the benefit of all members. While our 
current plans do not include permanent stationing of short- and medium-
range defenses in Southern Europe, the evolution of the ALTBMD 
architecture over time will assist member countries in addressing this 
need.
    Ms. Tauscher. General Obering, on page 13 of your written testimony 
you state: ``By devaluing Iran's longer-range missile force, European 
missile defenses could help dissuade the Iranian government from 
further investing in ballistic missiles and deter it from using those 
weapons in conflict.'' What is your basis for this statement? Is there 
any evidence that the deployment of U.S. theater missile defenses in 
the Middle East and deployment of longer-range defenses in Alaska have 
dissuaded Iran from developing ballistic missiles?
    General Obering.

        <bullet>  Iran has the largest force of ballistic missiles in 
        the Middle East, including several hundred SRBMs and Shahab-3 
        MRBMs. It continues its efforts to develop and/or acquire 
        ballistic missiles capable of striking Israel and central 
        Europe.

        <bullet>  Iran has publicly announced its pursuit of an 
        indigenous space program, which would provide them the 
        capability to develop longer-range missiles. The intelligence 
        community assessment is that Iran could have an ICBM capable of 
        reaching the U.S. before 2015.

        <bullet>  The Iranian president has issued multiple public 
        statements threatening the existence of Israel and indicating a 
        willingness to use all military means available, including 
        ballistic missiles.

        <bullet>  Deployment of theater BMDS assets to the Middle East 
        is in its early stages. Patriot batteries are in theater and 
        Aegis BMD-capable ships have recently begun operations in the 
        area. The first THAAD fire unit will not become operational 
        until late FY09. No decision has been made by the Department on 
        deployment of THAAD fire units.

        <bullet>  It is still too early to determine the deterrent 
        impact of U.S. missile defense deployments upon Iranian 
        ballistic missile deployment. Iran may prove to not be 
        deterrable. In this case, active missile defense provides the 
        President and European leaders with an alternative strategic 
        option to pre-emptive strike.

        <bullet>  Concern over Iranian ballistic missile activities was 
        a principal factor in the recent communique out of the NATO 
        Bucharest Summit Conference; supporting the deployment of 10 
        GBI's to Poland, the European Mid-Course Radar to the Czech 
        Republic and the AN/TPY-2 radar to a site yet to be determined. 
        European leaders are hopeful that Iran may be dissuaded from 
        continued ballistic missile development, but believe it prudent 
        to field a capability to defend Europe against this threat 
        should deterrence fail.

    Ms. Tauscher. General Obering, Israel has expressed interest in 
developing a new missile defense interceptor--the Arrow-3--to 
complement its existing missile defense capabilities. It is my 
understanding that the capabilities of the Arrow-3 would be very 
similar to that of the existing Standard Missile-3 or the THAAD system. 
In your view, could the SM-3 or THAAD meet Israel's future defense 
requirements? Have you done any analysis comparing and contrasting the 
capabilities of the various systems? What about preliminary cost 
estimates? If so, have you shared that information with Israel?
    General Obering. MDA's analysis shows that existing U.S. BMD 
systems like a land-based version of the SM-3 Block 1, provide roughly 
equivalent capability to the Arrow-3 concept when cued by a forward 
based radar such as the AN/TPY-2. A land-based version of the future 
SM-3 Block II now being co-developed with Japan would far exceed the 
capability of an Arrow-3. These BMDS systems are further along in 
development and include more mature sensors built into the interceptor 
for better target identification. Additionally, MDA sees limited value 
in creating a duplicate capability to one that already exists in the 
U.S. BMDS.
    Joint U.S.-Israeli analysis has shown that THAAD does not have 
sufficient coverage to provide the additional battlespace Israel 
requires to address evolving regional threats.
    MDA has conducted, and continues to conduct, architecture and 
engineering analysis on how best to provide effective layered ballistic 
missile defense for Israel and surrounding countries. The conceptual 
system using SM-3 Block IB and AN/TPY-2 is believed to be roughly 
equivalent in terms of general capability to the Israeli system using 
Arrow-3 and Super Green Pine, but far superior in terms of 
discrimination capability. MDA can provide classified presentations 
that illustrate their comparative performance. MDA is continuing these 
studies with a more comprehensive Analysis of Alternatives (AoA) to 
compare performance, cost, schedule and risk of the alternatives. The 
study is scheduled to be completed by the end of July.
    The issue of cost effectiveness is not settled conclusively, 
primarily because of the immaturity of the design requirements for the 
defense of Israel, accepted concepts for basing, joint planning and 
operations, logistic support, the requirement to incorporate ``anti-
tamper'' in both hardware and software, and complete disclosure of 
classified information by both sides. Whereas the SM-3 Block IB 
interceptor is a proven system, Arrow-3 has not completed a system 
requirements review, much less entered full scale development. The lack 
of design decisions regarding Arrow-3, its proposed complexity, and 
means for integration into a defensive architecture, indicates 
significantly greater risk for an Arrow-3 based system than for SM-3.
    Because the AoA will not be completed until late July, the initial 
cost estimates are likely to change, however MDA's preliminary cost 
estimates for Arrow-3 interceptor are:

        <all>  Development Program: $1,097M

        <all>  Average Unit Cost (AUC) (40); $3.5M

    While Israel maintains that their costs will be significantly lower 
than MDA's cost estimates, MDA's cost experience from THAAD as a 
Program Definition and Risk Reduction (PDRR) program to an Engineering 
and Manufacturing Development (EMD) program indicates other development 
costs are likely. Based on this experience, possible costs for Arrow-3 
Weapons Systems could be:

        <all>  Radar: $929M

        <all>  Fire Control: $272M

        <all>  Launcher: $91M

    National disclosure restrictions have limited the amount of 
detailed SM-3 performance and cost information that MDA could share 
with Israel. National Disclosure Policy, Anti Tamper requirements, and 
other foreign sales issues are challenges that MDA is addressing in 
order to promote a U.S. BMDS solution to Israel's upper tier 
requirement.

        <all>  MDA provided THAAD information to Israel last June

        <all>  In March, MDA received an Exception to National 
        Disclosure Policy (ENDP) for release of SM-3 IA/IB Data which 
        has been provided to Israel. Review is in progress.

        <all>  Israel has several other disclosure requests (ANTPY-2 
        (FB), MKV, Army JLENS) currently in various stages of the 
        disclosure process

    Ms. Tauscher. General Obering, the Missile Defense Agency has 
consistently told Congress that it plans to make incremental, ``spiral 
upgrades'' to its various missile defense systems. What is the MDA plan 
for implementing ``spiral upgrades'' to the THAAD system? When does MDA 
plan to begin budgeting for these upgrades?
    General Obering. Largely in response to demands from both the 
Congress and the warfighter, the Missile Defense Agency budget reflects 
an overall strategy that focuses on near term delivery of ballistic 
missile defense capabilities, including THAAD as an element of BMDS. 
However, the Agency continues to evaluate alternative strategies for 
spiral development for potential inclusion in the FY2010 budget 
submission across the Elements of the BMDS. Candidate spiral upgrades 
to the THAAD element include: the development work that will enable the 
Engagement Sequence Group for THAAD to Launch on Remote Sensors; and to 
extend the distance from the Fire Control to the THAAD launcher. Based 
on fiscal constraints and the priority for near term delivery of BMDS 
capabilities, funding for spiral development of the BMDS capability 
represented by the THAAD element will likely be in the FY13-15 
timeframe.
    Ms. Tauscher. General Obering, the committee recently learned that 
the Missile Defense Agency has decided to move the management of the 
THAAD radars from the THAAD Program Office to the MDA Sensors Program 
Office. What were the specific reasons for this decision? How will MDA 
ensure that this transfer will not negatively impact the THAAD program?
    General Obering. The decision to consolidate the THAAD radar 
organization with the Sensors Directorate was part of a deliberate 
strategy to combine development, testing, and O&S activities for the 
Agency's family of X-band radars (TPY-2 forward based mode (FBM); TPY-2 
terminal mode (TM); Sea Based X-Band radar, and the European Mid-Course 
Radar). The AN/TPY-2 FBM and AN/TPY-2 TM X-Band radars share a common 
hardware and software design; these synergies allow for one 
organization to be responsible for the development, test, delivery and 
support of these radars. It also allows for our industry partner to 
combine separate efforts (which they have done) under one team; not two 
separate teams. This consolidation also allows for common X-band radar 
contracts which will lead to efficiencies for the taxpayer.
    Ms. Tauscher. How will MDA ensure that this transfer will not 
negatively impact the THAAD program?
    General Obering. The transition has caused no disruption of ongoing 
Forward Based or THAAD Mission efforts. While now part of the Sensors 
Directorate, the former THAAD Radar Product Office staff continues to 
remain the single face within MDA on THAAD radar development and 
production. Support to the THAAD Office has been excellent as 
demonstrated in recent test successes.
    Ms. Tauscher. General Obering, in a real world combat situation, 
the THAAD and Patriot systems must be able to work seamlessly with one 
another. Are there any plans to conduct a joint THAAD/Patriot intercept 
test? What are the challenges with conducting such as test?
    General Obering. During FY08 and FY09, THAAD and PATRIOT will both 
participate in a series of live intercept tests, as described below. 
Additionally, THAAD/PATRIOT integration and interoperability are 
extensively evaluated during ground test campaigns. MDA is planning 
opportunities for joint test events with BMDS objectives included on 
PATRIOT firing tests. Advanced planning is in progress for simultaneous 
intercept flight tests in the FY11 timeframe. Significant challenges to 
simultaneous intercept tests include range instrumentation for multiple 
targets and interceptors and range safety and intercept debris 
considerations.
    Caravan-2 is an Israeli Arrow Weapon System flight test scheduled 
4QFY09 at Pt. Mugu, CA. Patriot and THAAD will both be online 
exchanging track data and evaluating the impact of Arrow intercept 
debris on PATRIOT/THAAD operations. Aegis BMD and C2BMC will also 
participate in this test.
    FTT-10 is a THAAD live intercept flight test scheduled at the 
Pacific Missile Range Facility in September 2008. PATRIOT will 
participate to evaluate THAAD/PATRIOT data exchange and the effects of 
THAAD intercept debris on PATRIOT operations. Aegis BMD and C2BMC will 
also participate in this test.
    Patriot 7-2 is a PATRIOT live intercept flight test at White Sands 
Missile Range, scheduled to occur mid calendar year 2009. THAAD will 
participate to provide a cue to PATRIOT and to evaluate THAAD/PATRIOT 
data exchange. C2BMC will also participate in this test.
    Ms. Tauscher. General Obering, the Army recently announced that it 
has established an Integrated Air and Missile Defense program to fully 
integrate Army air and missile defense assets. To what extent is MDA 
working with the Army to ensure that THAAD is fully integrated into the 
Army IAMD system? Will MDA's C2BMC be fully interoperable with the Army 
IAMD system?
    General Obering. MDA participated in discussions with the Army's 
Integrated Air and Missile Defense (IAMD) Project Office to plan the 
integration of the THAAD Fire Control & Communication component into 
Increment 2.0 of the IAMD Battle Command system (IBCS). The planning 
continued into early 2007, when funding to the IAMD program was 
reduced. Due to the funding cut, THAAD integration was delayed from 
IBCS Increment 2.0 to Increment 3.0, which will be completed some time 
after 2012.
    Both MDA and the Army recognize the importance of ensuring that 
C2BMC capabilities are interoperable with the Army's IAMD efforts. To 
that end, the Director of MDA and the Army Acquisition Executive co-
signed a Memorandum of Understanding (MOU) in March 2007, which 
established a framework for cooperation between C2BMC Program Director 
(MDA/BC) and Program Executive Officer Missiles and Space (PEO MS) in 
developing, integrating, testing, fielding, and supporting current and 
future IAMD and BMDS Battle Management Command and Control products. 
Formalizing the relationship between PEO MS and MDA/BC should help 
maximize available resources, providing an economy of effort and 
facilitating the development of interoperable capabilities. The MOU 
establishes a framework for collaboration on a host of inter-related 
areas overseen by flag officer reviews. Additionally, the Army's IAMD's 
Integrated Air and Missile Defense Battle Command System (IBCS) Request 
for Proposal (RFP) directs that proposed solutions must be 
interoperable with C2BMC and contains language offering the C2BMC 
Planner as a government furnished product (GFP).
    Ms. Tauscher. Secretary Young and General Obering, I understand 
that the United Arab Emirates (UAE) is interested in potentially 
purchasing several THAAD fire units. Could you provide us an update on 
the status of that potential sale? How many THAAD fire units and 
interceptors would be involved with the sale? Who would be the 
executive agent for this sale? MDA, the Army? Will the potential sale 
of THAAD help reduce the overall cost of the system? What are the key 
technology security issues associated with the potential sale to UAE?
    General Obering. Currently, the Congressional notification has been 
signed by the State Department and is awaiting completion of the pre-
consultations with SFRC and HFAC staff. Once the pre-consultations are 
complete, the State Department will forward the Section 36(b) 
notification to Congress for a 20-day informal and then a 30-day formal 
notification. MDA is working on information for the Letter of Offer and 
Acceptance (LOA). After the Congressional notification process is 
complete, MDA will work with Army, the Implementing Agency, to complete 
the LOA process. This sale will involve a total of three (3) THAAD Fire 
Units (FU) plus an additional float radar, and will include one hundred 
and forty-four (144) interceptors in total. The Army will be the 
Implementing Agency for the UAE THAAD FMS case. The United States will 
expect cost savings as the number of THAAD fire units and spare 
interceptors increases. These increased production order quantities 
will mitigate production gaps and enable a reduction in average unit 
interceptor costs. With the appropriate anti-tamper measures in place 
on U.S. military systems provided or sold to a foreign partner, the 
United States can ensure that technologies are protected against 
compromise and reverse engineering. The THAAD Anti-Tamper Program has 
been approved within DOD and is fully funded.
    Ms. Tauscher. General Obering, does the Missile Defense Agency plan 
to continue the development of the unitary warhead for the SM-3 IIA 
missile?
    General Obering. Yes, we will continue our unitary kill vehicle 
development efforts as part of the SM-3 Blk IIA Cooperative Development 
with Japan. This cooperative program with Japan is considered a top 
priority effort of critical importance to both MDA and Japan.
    Ms. Tauscher. General Obering, the committee has been informed that 
MDA plans to manage all kill vehicles, both unitary and multiple, under 
the MKV Program Office. How will MDA ensure that this will not have the 
unintended effect of removing focus on developing and improving 
existing unitary kinetic kill vehicles, such as the unitary kill 
vehicle being jointly developed by the United States and Japan.
    General Obering. The MKV Office has transitioned to the BMDS Kill 
Vehicles Office to centralize the development of new unitary and 
multiple kill vehicles. MDA will deliver both a unitary kill vehicle 
for the SM-3 Block IIA Cooperative Development missile with Japan and 
multiple kill vehicle payloads for all midcourse weapon systems (Ground 
Based Midcourse Defense, Kinetic Energy Interceptor, and Aegis 
Ballistic Missile Defense SM-3 Block IIB). Existing kill vehicles and 
any improvements will remain the responsibility of the current office.
    To ensure continued focus on the SM-3 Block IIA unitary 
interceptor, Aegis BMD will retain responsibility for managing the 
overall SM-3 Cooperative Development cost, schedule, and performance 
baseline. The BMDS Kill Vehicles office will execute the development of 
the SM-3 Block IIA kill vehicle with the priority to deliver the SM-3 
Block IIA according to our commitments with the Government of Japan.
    Ms. Tauscher. General Obering, I understand that MDA has agreed to 
DOT&E's recommendation for a third flight test of the two-stage GMD 
interceptor. According to DOT&E's European Test Concept, the third test 
should track ``and intercept multiple threat representative 
intermediate-range targets from air launched platforms along with a 
long-range threat representative target launched from Kodiak Island. 
Interception of both the intermediate range targets by the new 
interceptors and the long-range threat simulated by two and three-stage 
interceptors (sim-over-live).'' Does MDA plan to follow DOT&E's 
specific recommendations for the third test of the two-stage 
interceptor (i.e., multiple intercepts)? If not, why not?
    General Obering. Detailed planning, by MDA and DOT&E staffs, on 
these three tests is currently ongoing. The third flight test, as 
described in DOT&E's conceptual paper, is not currently supportable due 
to the lack of intermediate range air-launched targets and mobile test 
infrastructure. Additional considerations for range safety and airspace 
constraints will also factor into test planning restrictions. I am 
confident that we will reach agreement with DOT&E that is mutually 
acceptable for these tests.
    Ms. Tauscher. General Obering, Missile Defense Agency plans to 
conduct a lethal shoot-down demonstration of the Airborne Laser (ABL) 
during the 4th Quarter of fiscal year 2009. If that test is successful, 
will that prove ABL is operationally effective, suitable, survivable, 
and affordable? If not, what steps will need to take place to determine 
whether ABL is effective, suitable, survivable, and affordable?
    General Obering. No, FTL-01, the lethal shoot-down demonstration, 
by itself, will not prove ABL is operationally effective, suitable, 
survivable, and affordable. The ABL Tail 1 aircraft is a technology 
demonstrator that was never intended to be fully operational. MDA will 
address affordability, performance improvements, weaponization, and 
operability based on Tail 1 lessons learned, the flight test campaigns, 
and focused trades and studies.
    Following a successful FTL-01, additional flight tests and studies 
are planned to determine the effectiveness, suitability, survivability 
and affordability of an operational ABL. The MDA FY09 budget request 
includes funds to initiate these trade studies that will eventually 
lead to ABL Tail 2, a production representative aircraft. As part of 
these trade studies, MDA will address ways to improve weapon system 
reliability, maintainability, supportability, manufacturing planning, 
and operability. In addition, results from these studies will help 
determine the potential operational effectiveness, suitability, and 
survivability of the operational ABL fleet. If FY09 funding to initiate 
these studies is cut, MDA's ability to make a decision will be delayed 
by at least one year.
    Ms. Tauscher. General Obering, the Congressional Budget Office 
(CBO) estimated that it could cost as much as $36.0 billion to develop, 
procure, and operate a fleet of seven ABL aircraft for 20 years. What 
is MDA's current total cost estimate for the ABL program? Has DOD Cost 
Improvement Group done an independent assessment of the likely costs of 
ABL? If not, why?
    General Obering. The $26B (Base Year 06) ABL life cycle cost 
estimate provided in the FY06 Report to Congress included the cost to 
develop, procure and operate a fleet of seven aircraft for 20 years. 
MDA has continued to mature requirements for developing and fielding an 
operational ABL and estimates of the resulting costs.
    We recognize the importance of affordability to ABL. The program is 
continuing to aggressively evaluate technical and affordability 
opportunities to improve the operational capabilities of the aircraft 
and make best use of limited resources. These will be implemented after 
FTL-01, the successful lethal demonstration in 4QFY09.
    The Airborne Laser (ABL) Element is a Capability Development of the 
Ballistic Missile Defense System. Therefore, MDA has not requested the 
OSD Cost Analysis Improvement Group to perform an Independent Cost 
Estimate (ICE) for ABL. MDA intends to request an ICE for ABL at a 
later time, after reducing programmatic uncertainties and before 
deciding to commit resources to procuring and sustaining an ABL 
capability.
    Ms. Tauscher. General Obering, in 2006, the Department of Defense's 
Office of Program Analysis and Evaluation conducted a review examining 
the potential effectiveness of the Airborne Laser (ABL) and the Kinetic 
Energy Interceptor (KEI) to perform the boost phase defense mission. 
What were the key findings of that study? What did the study have to 
say about the performance of ABL and KEI? How will the results of that 
study be taken into account as the Department makes future decisions 
regarding the future of its boost phase defense systems?
    General Obering. The PA&E study illustrated the significant (and 
different) performance sensitivities of the ABL and KEI weapons to 
varying threat characteristics (burn time, fuel type, hardness), 
countermeasure types, and operational engagement conditions 
(atmospherics and basing locations). MDA does not agree with many of 
the PA&E study results, particularly concerning the operational 
effectiveness of the Airborne Laser.
    The PA&E study findings on KEI effectiveness were very consistent 
with the 2006 MDA Boost/Ascent Congressional report. For ABL, varying 
PA&E and MDA study assumptions on countermeasure extent and likelihood 
drove PA&E leadership to a more pessimistic view of ABL operational 
effectiveness than that captured in the 2006 MDA Congressional Report. 
ABL lethality and countermeasure effects testing conducted after the 
2006 report supports MDA modeling assumptions contained in the 2006 
report.
    The MDA and PA&E have consistent analytical representations of ABL 
and KEI operational effectiveness when consistent assumptions of the 
threat, countermeasures, and operational conditions are applied. The 
2009 Knowledge Points for ABL and KEI, along with parallel objective 
system engineering and planning work, will provide us with the 
performance, cost, schedule, and risk information we need to refine our 
BMDS acquisition strategy for boost phase capabilities.
    Ms. Tauscher. General Obering, the Missile Defense Agency has 
stated that ABL is its ``primary'' boost phase missile defense program. 
What were the specific criteria MDA used to designate ABL as its 
``primary'' boost phase system?
    General Obering. The ABL is our primary boost phase capability 
because it is the only capability that can intercept all ranges of 
threat in the boost phase. KEI boost phase intercept is limited to long 
range threats that burnout in the exoatmosphere (greater than 100 km 
altitude). By significantly thinning that threat in the boost phase, 
ABL has the potential to greatly augment our ability to defeat large 
raids of short range and medium range ballistic missiles, of which our 
adversaries are known to have large quantities.
    Ms. Tauscher. General Obering has said that if ABL's 2009 lethal 
shoot-down demonstration is successful, the Missile Defense Agency will 
initiate an evaluation process to examine the long-term affordability 
of the ABL system. What are the key criteria that will guide this 
evaluation? How long do you anticipate this evaluation to take? Will 
that review also examine issues such as operational effectiveness, 
survivability, and suitability?
    General Obering. The long-term affordability of ABL will be 
considered only in the context of the entire Ballistic Missile Defense 
System (BMDS). The scope of work and maturity of other technology and 
development programs within MDA must also be considered in making 
decisions about a particular element of the BMDS. MDA will consider 
criteria that will include affordability, operational effectiveness, 
technology maturity, producability, ground and flight test data and, 
technical performance during buildup activities. Data and knowledge 
gathered during the buildup and flight tests of ABL will be a part of 
the evaluation. Operational effectiveness, survivability, and 
suitability will be examined.
    Other factors may influence a decision about whether to include ABL 
capability within the BMDS, including other investment opportunities, 
program timing, total funding availability, BMDS functionality, and 
dynamic warfighter requirements. We expect the evaluation to be 
completed about 12 months after the FTL-01 lethal demonstration.
    The affordability of ABL assets and the defense capability ABL 
would provide, will be among the many factors MDA weighs in considering 
a commitment to this capability. ABL has significant upfront investment 
costs, however, engineering estimates indicate that the cost per shot 
for ABL would be insignificant relative to the cost of a missile 
intercepting and destroying an enemy ballistic missile. At this time, 
there are no conclusive decisions on affordability or the other long-
term issues associated with ABL.
    Ms. Tauscher. General Obering, I remain concerned about the status 
of MDA's targets program. The lack of effective and reliable targets 
has become the pacing item of the Agency's overall testing program. In 
your view, what are the key reasons for the continuing challenges 
associated with the targets program? What specific actions are you 
taking to rectify these challenges?
    General Obering. Key reasons for the continuing challenges 
associated with the targets program?

        <bullet>  Requirements variability and interpretation are key 
        challenges to the Targets program. Mission specific 
        interpretation of target requirements with Elements occurs late 
        in the target development cycle and drives changes that 
        increase cost and jeopardize schedule.

        <bullet>  Progress on the 72" variant of the flexible target 
        family (FTF) has been slower than expected primarily due to 
        hardware qualification. This delay increased overall 
        development cost and stressed Target budgets.

        <bullet>  The Targets and Countermeasures (TC) Office has 
        relied heavily on aging Polaris motors for long range targets. 
        Over an extended period, TC built and maintained an inventory 
        of Polaris motors and flight hardware. This inventory of motors 
        and flight hardware is nearly depleted. This prompted TC's 
        transition to C-4 Trident motors for the FTF 72" variant of 
        long range targets. The flexibility afforded by the newer 
        Trident hardware inventory will not be achieved before the FTF 
        72" flight and inventory units complete production.

    What specific actions are you taking to rectify these challenges?
    MDA is sharpening its focus to keep Targets from impairing or 
delaying successful BMDS flight test execution through:

        <bullet>  Lockheed Martin and Government Senior Leader 
        involvement in solving target issues; and Independent Reviews 
        addressing supplier management, risk management, and program 
        executability.

        <bullet>  Increased rigor and accountability in schedule 
        management, cost management and budget development. Implemented 
        daily action/resolution tracking of critical items.

        <bullet>  Improved communication with BMDS Elements and MDA/DE 
        to adjudicate requirements in a timely manner.

        <bullet>  MDA is developing Long Range Target Roadmap (3 yr +) 
        to facilitate planning, and achievement of Program Objective 
        Memorandum requirements, as well as to describe technical 
        target capabilities requiring future development from the 
        Targets Office.

        <bullet>  Funding planned for the upcoming FY2010 budget 
        submission will optimize manufacturing flow and support short 
        notice requirements thereby mitigating overall target risk to 
        BMDS test events through utilization of a Rolling Spare.

    Ms. Tauscher. General Obering, I understand that MDA plans to 
launch the two Space Tracking and Surveillance System (STSS) 
demonstration satellites this November. I also understand that MDA is 
restructuring its plans with regard to the STSS follow-on program. How 
confident are you that the STSS satellites will be launched in November 
as planned? What are the key lessons that you hope to learn from the 
two demonstration satellites and how will those lessons be incorporated 
into the proposed follow-on constellation? Can you provide an idea of 
the key changes you plan to make to the STSS program as a result of the 
restructure?
    General Obering. MDA has medium confidence in a November launch 
date for the STSS Demonstration satellites. The prime, NGST, is 
currently working through three technical issues on the critical path 
for final acoustic testing. We will have a much better idea if the 
November launch date is achievable once these issues are resolved and 
acoustic testing is accomplished. Current projection for completion of 
this testing is late July 2008.
    The STSS Demonstration satellites will acquire ballistic missile 
targets in boost phase and will continuously track deployed objects. 
STSS tracking data will be used to demonstrate that interceptors can be 
launched and directed to their targets using only space sensor feeds. 
This will be a crucial step toward adding a robust early intercept 
layer to the BMDS.
    The STSS Demonstration satellites will show how an operational BMDS 
Low Earth Orbit (LEO) tracking layer would function as part of an 
integrated space sensor architecture of functionally specialized 
satellites. MDA intends to demonstrate the handover of boost phase cues 
from high altitude early warning satellites to the low altitude 
constellation of tracking satellites.
    STSS Demonstrators will also exercise ground control processes and 
procedures for monitoring, maintaining, upgrading and commanding the 
satellites on-orbit. Lessons learned may lead to ground segment 
innovations that will significantly reduce manpower requirements and 
cost.
    Finally, the STSS Demonstration satellites will collect fundamental 
phenomenological and space environment data that may influence the 
design of the spacecraft and payload for the operational STSS 
constellation.
    The engineering design of the operational STSS capability will 
almost surely look different than the STSS Demonstration satellites 
that fly in November. However, the STSS Demonstration satellites will 
collect essential engineering design data and will execute important 
proof-of-principle experiments that will materially inform the 
constellation development, most significantly in the area of sensor 
designs.
    Given initiation of the STSS constellation activity early in FY09, 
the Preliminary Design Review (PDR) for the constellation work is 
anticipated in early FY10. Data from the STSS Demonstration satellites 
will be available to support detailed sensor design trades that will 
follow PDR.
    Changes to the STSS Constellation fall into three categories:

        1.  MDA has redefined the planned operational STSS 
        constellation to reflect our new understanding of the evolving 
        threat.

        2.  MDA has frilly integrated STSS into the BMDS architecture, 
        focusing on assigning to STSS only the unique BMDS functions 
        that a low earth orbit sensor constellation can best provide. 
        This architecture leverages capabilities from external sensors, 
        such as DSP/SBIRS, and BMDS radars.

        3.  The commercial space imaging industry is the model for 
        quick delivery to market of highly capable satellites in small 
        packages at relatively low cost. MDA is applying the lessons of 
        those engineering precedents and others to design the 
        operational capability. Trade studies and engineering analyses 
        are ongoing.

    While key design trades are still underway, the resulting STSS 
constellation MDA is requesting to initiate in FY09 will be smaller, 
and of simpler design than the previously planned program. The simpler 
design promises to be less expensive and allows MDA to deliver this 
capability to the warfighter in the timeframe requested in STRATCOM's 
Prioritized Capabilities List (PCL).
    Ms. Tauscher. General Obering, Page 39 of the Director of 
Operational Test and Evaluation's FY2007 Assessment of the Ballistic 
Missile Defense System states: ``There is limited flight test data 
demonstrating EKV performance overall, and only a single flight test 
(FTG-03a) using the current EKV with its new software configuration. No 
EKV model/simulation is currently validated or accredited for 
performance assessment.'' When is it likely that MDA will have 
validated and accredited models for the existing EKV?
    General Obering. The current EKV software build is 20.7. The EKV 
models which emulate this software build are currently being assessed 
and their expected accreditation by the GMD Program Office will be in 
September 2008.
    Ms. Tauscher. General Campbell, in testimony before the Senate 
Armed Services Committee last year, General James Cartwright, the 
former commander of U.S. Strategic Command and current Vice Chairman of 
the Joint Chiefs of Staff, said that his focus with regard to missile 
defense was to expand ``beyond long-range intercontinental ballistic 
missiles to start to address those that hold at threat our forward 
deployed forces, or allies and our friends. Those are more in the 
short- and medium-range ballistic missiles, things that Patriot, 
Standard Missile-2 and [Standard Missile]-3 will be able to address, 
and THAAD as it comes on.'' Do you agree with General Cartwright that 
we need to focus greater attention on countering the threat from short- 
and medium-range missiles? If so, what role will STRATCOM play to 
ensure that sufficient resources are devoted to countering the short- 
and medium-range threat?
    General Campbell. There is a continuing global trend toward the 
development of increasingly survivable short, medium, and long range 
ballistic missiles by nations that are not necessarily friendly to our 
national interest. Therefore, General Cartwright's assessment remains 
true today--it is vital to expand the ballistic missile defense system 
to effectively address all threats at all ranges. We should maintain a 
balanced missile defense investment portfolio.
    The U.S. Strategic Command's (STRATCOM) role with regards to 
missile defense resource allocation was recently expanded. The Missile 
Defense Executive Board (MDEB) is reviewing a set of transition and 
transfer business rules that codify the warfighter's role in the 
development of the missile defense investment strategy. These new 
business rules identify STRATCOM and the Joint Integrated Air and 
Missile Defense Organization as co-leads in establishing warfighter 
capability requirements. These warfighter capability requirements, 
vetted through the MDEB, will influence the missile defense investment 
decisions within the Department.
    Ms. Tauscher. General Campbell, I was wondering if you could 
clarify for me a couple of things about the Joint Capabilities Mix II 
study. First, regarding the inventory requirements for additional THAAD 
and SM-3 interceptors identified in JCM II, am I correct in thinking 
that those conclusions represent the bare MINIMUM of the upper-tier, 
interceptor inventory necessary to meet COCOM war-fighting 
requirements? Therefore, is it fair to say that additional THAAD and 
SM-3 interceptors--higher than the level recommended by JCM II--may be 
required to fully meet COCOM war-fighting requirements?
    General Campbell. That is correct. The most recent iteration of the 
Joint Capability Mix (JCM) Study supports the previous study findings 
of the minimum quantities of SM-3 and THAAD interceptors for combat 
operations in two nearly simultaneous conventional campaigns in the 
2015 timeframe. I do believe that your statement regarding additional 
THAAD and SM-3 inventory beyond the levels outlined in the JCM Study to 
satisfy Combatant Commander war fighting requirements is fair.
    Ms. Tauscher. General Campbell, I understand the Army's original 
requirement for THAAD called for procuring 8 fire units and 1,250 
interceptors. What were the factors that drove the Army to the original 
1,250 interceptor number? What factors account for the key differences 
between the JCM II findings and the Army's previous analysis?
    General Campbell. The original quantity of 1,250 interceptors was 
based on an Army force structure of two THAAD battalions with each 
consisting of four firing batteries. The later conducted Joint 
Capability Mix (JCM) Studies determined the quantity of THAAD batteries 
and interceptors necessary to counter a defined future threat-set 
placed in two specific operational scenarios. While the quantities 
defined represent an expected minimum number of required interceptors, 
the JCM studies did not address additional operational scenarios or 
Army requirements for testing, maintenance or potential war reserves 
that significantly increase inventory requirements.
    Ms. Tauscher. General Campbell, has STRATCOM conducted a study to 
examine current and future GMD inventory requirements? If so, what were 
the key findings from that study? Is the current number of planned GMD 
interceptors sufficient to meet warfighter requirements in the near- 
to-mid-term?
    General Campbell. The U.S. Strategic Command has not conducted a 
study to examine current and future GMD inventory requirements. 
However, our assessment, currently reflected in the Military Utility 
Assessment, is that the ballistic missile defense capability is 
sufficient to meet warfighter requirements in the near- to mid-term.
    Ms. Tauscher. General Campbell, has STRATCOM (or any other part of 
the Department of Defense) conducted a comprehensive analysis examining 
overall missile defense inventory requirements against short-, medium-, 
and long-range missile threats? If so, what were the key findings from 
that analysis? If not, does STRATCOM have a plan to undertake such an 
analysis?
    General Campbell. There have been at least two studies addressing 
warfighter missile defense requirements in countering short and medium 
ballistic missile threats: the 2001 Joint Missile Inventory Study and 
the recent Joint Capability Mix (JCM) Study. Both studies were 
conducted by the organization formerly known as the Joint Theater and 
Air Missile Defense Organization (JTAMDO), now known as the Joint 
Integrated Air and Missile Defense Organization (JIAMDO). The Joint 
Missile Inventory Study addressed missile quantity requirements for 
Patriot and the canceled Navy Area Defense while the JCM Study 
addressed the upper tier requirement for SM-3 and THAAD. Both studies 
identified the minimum inventory requirements for the theater missile 
defense systems.
    For the defense against long range ballistic missiles, I am not 
aware of any warfighter studies that have been conducted since the 
abolishment of the Anti-Ballistic Missile Treaty. The U.S. Strategic 
Command plans to work with the Joint Integrated Air and Missile Defense 
Organization to develop new studies to address a wide spectrum of 
warfighter missile defense issues, including the sufficiency of the 
missile inventory. These studies are under development and will be 
conducted, staffed, and finalized at a later time.
    Ms. Tauscher. General Campbell, STRATCOM has been working to 
develop a concept of operations for global, integrated ballistic 
missile defense operations for several years. One challenge in 
developing such a concept is how to coordinate command and control 
across combatant commanders' areas of responsibility. What is the 
status of STRATCOM's efforts to develop a global BMDS concept of 
operations? How has STRATCOM worked to achieve consensus across all the 
combatant commands? How will this concept be vetted, approved, and 
implemented? How will this concept influence warfighters' requirements 
for ballistic missile defense capabilities? How will U.S. Strategic 
Command ensure that the individual element concepts are coordinated 
with the global concept? What challenges exist in developing a global 
concept, which could affect force structure requirements, when DOD has 
already announced the force structure for its intended European 
ballistic missile defense capability?
    General Campbell. At the direction of the U.S. Strategic Command, 
the Joint Functional Component Command for Integrated Missile Defense 
(JFCC-IMD) has been collaborating with the Geographical Combatant 
Commanders (GCCs) in developing the Global Concepts of Operations 
(CONOPS). The intent of the Global CONOPS is to benchmark command 
relationships, optimizing the employment of the ballistic missile 
defense system across the GCCs. We have successfully conducted a series 
of table-top and computer aided exercises that established GCC 
consensus on employment principles and attributes. This consensus led 
to the development of options for the command architecture within the 
Global CONOPS. We are currently coordinating with the Joint Staff and 
GCCs on these options and expect to reach resolution shortly.
    Once the Global CONOPS is complete and the Joint Staff has issued 
its guidance, JFCC-IMD will work closely with all stakeholders to 
implement the plan. JFCC-IMD intends to leverage the existing joint 
contingency and crisis action planning processes to synchronize 
warfighter requirements for the BMDS command architecture and provide 
the framework to evolve the BMDS Element concepts. Additionally, JFCC-
IMD will work closely with the Missile Defense Agency (MDA) to provide 
timely warfighter guidance to evolve the European capability. JFCC-IMD 
has already been engaged in MDA design and requirements reviews to 
minimize any adverse impact of the Global CONOPS to the ongoing 
development efforts.
    The DOD announced force structure for the European capability only 
addresses the employment of ground-based interceptors and the 
associated X-band radar site. The Global CONOPS will integrate all of 
the ballistic missile defense capabilities--tactical, regional, 
strategic and Allied missile defense capabilities to optimize the 
defense of a supported Combatant Commander's area of responsibility. 
The challenges to the Global CONOPS are maintaining the currency and 
validity of defense plans to negate trans-regional threats and creating 
an environment of shared situational awareness between the GCCs. Having 
a common set of missile defense priorities and a common operating 
environment will enable the GCCs to exercise sound military judgment to 
maximize defense of the Homeland and their respective areas of 
responsibility.
    Ms. Tauscher. General Campbell, I understand that you have been 
playing an important role with regards to the command and control 
issues associated with the proposed European interceptor site. I 
understand that there is discussion about having U.S. Northern Command 
(NORTHCOM) control the proposed long-range interceptors in Poland. What 
is STRATCOM's current view as to which combatant command should have 
control over the long-range interceptors in Poland--EUCOM or NORTHCOM? 
What signal would it send to our NATO allies if we controlled the 
Polish-based interceptors from Colorado Springs?
    General Campbell. We continue to work closely with the Geographic 
Combatant Commanders (GCCs) to finalize the Global Concept of 
Operations (CONOPS) and provide the necessary framework to guide the 
potential deployment of the European Capability and an associated 
command structure. Until the CONOPS are finalized, there is not a view 
on the specific command and control structure of a potential European 
Capability. Our objective remains to adhere to the established 
principle that best enables each GCCs to defend their own area of 
responsibilities (AOR).
    In my view, the location of the command and control facility is 
less important to our NATO allies than common situational awareness and 
transparency regarding use. Continued work with our NATO allies is 
critical to developing a command and control concept that addresses 
their concerns.
    Ms. Tauscher. General Campbell, in 2002, the Unified Command Plan 
(UCP) assigned the U.S. Strategic Command (STRATCOM) responsibility for 
planning, coordinating, and integrating global missile defense 
operations. That said, much has occurred since then. Given the lessons 
we have learned since 2002, do you anticipate any changes or revisions 
to the UCP with regard to missile defense? If so, what are those 
changes? Is it possible that STRATCOM could potentially be assigned 
execution authority?
    General Campbell. The 2002 Unified Command Plan (UCP) has been 
replaced by a 2006 UCP. The current version reiterates the same 
overarching missile defense responsibilities for U.S. Strategic Command 
(STRATCOM). However, due to the rapidly evolving air and missile 
defense missions and the lessons learned while developing the Global 
Concepts of Operations, the 2008 UCP, now under development, will 
further refine STRATCOM's global missile defense responsibilities. The 
proposed change updates the language but does not significantly alter 
existing roles and missions.
    Ms. Tauscher. General Campbell, in 2004, STRATCOM and MDA 
established the Warfighter Involvement Program to increase warfighter 
involvement in the missile defense program. However, the committee has 
been told by the military services that the current WIP process does 
not provide them adequate insight into the missile defense 
requirements. What is your current process for ensuring that the 
military services (e.g., corporate Army) are fully involved in the WIP? 
Do the military services, who will ultimately be responsible for 
operating the various systems, currently play a major role in the 
development of the WIP? If not, how can that process be improved to 
ensure that they play a larger role in the WIP?
    General Campbell. The Warfighter Involvement Process (WIP) has 
continued to evolve since its inception in 2004. It should be noted 
that the WIP is one of many venues available to the Services to address 
specific missile defense issues or requirements. The WIP addresses 
Services' operational requirements through the sponsoring Combatant 
Commands. Other forums, such as the Board of Directors (BOD), address 
Services' corporate requirements (i.e. transition and transfer) with 
the Missile Defense Agency (MDA).
    Recognizing that disparate interests and requirements exist, two 
actions have been taken to harmonize the Services' requirements and 
participation in the enterprise-wide management of missile defense 
capability. First, U.S. Strategic Command is expanding Service 
participation in the WIP to address more than operational issues. 
Second, the DOD has established the Missile Defense Executive Board 
(MDEB), with four permanent Standing Committees, to address the 
Services' corporate issues. The MDEB is reviewing a set of business 
rules that codify the roles of the Services in missile defense 
enterprise-wide management to include warfighter requirements.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. Secretary Young, General Obering, General Campbell, and 
Dr. McQueary, the Standard Missile-3 has been successfully demonstrated 
in six flight tests last year and in the successful real-world shoot 
down of an errant satellite earlier this year. It is clearly our most 
thoroughly tested and operationally ready missile defense interceptor. 
Given this tremendous track record, why would the missile defense 
agency plan to change the successful design of the Solid Divert 
Attitude Control System for block IB? Wouldn't this change invite 
operational risk and cost the taxpayer tens of millions of dollars in 
non-recurring engineering? Why not stay with a successful, proven, 
cost-effective design?
    Secretary Young. The Solid Divert and Attitude Control System 
(SDACS) has been a key part of the success of the Standard Missile 
(SM)-3 Block IA. However, the SDACS is challenging to produce and is 
extremely sensitive to process and material changes. The SM-3 Block IB 
includes a Throttleable Divert and Attitude Control System (TDACS), 
which provides multiple advantages over the SDACS. First, the 
modularity of the design improves its producibility reducing overall 
cost. Second, the scalability of the design establishes a baseline for 
future growth in the SM-3 Block IIA Kinetic Warhead (KW). Additionally, 
the single propellant grain in the TDACS facilitates incorporation of 
Mil-Standard safety requirements that are unachievable with current 
technology for the multiple pulse SDACS design.
    The Agency selected the TDACS as the baseline design for the SM-3 
Block IB based on these technical and programmatic advantages. The 
Aegis BMD 4.0.1 weapon system is designed to take advantage of the SM-3 
Block IB's more flexible TDACS control system. To revert back to an 
SDACS configuration in the Block IB KW would require additional non-
recurring engineering and a minimum 18 month delay in the Block IB 
fielding schedule. This would result in a delay in testing and fielding 
the much more capable Block IB KW.
    Mr. Reyes. Secretary Young, General Obering, General Campbell, and 
Dr. McQueary, the Standard Missile-3 has been successfully demonstrated 
in six flight tests last year and in the successful real-world shoot 
down of an errant satellite earlier this year. It is clearly our most 
thoroughly tested and operationally ready missile defense interceptor. 
Given this tremendous track record, why would the missile defense 
agency plan to change the successful design of the Solid Divert 
Attitude Control System for block IB? Wouldn't this change invite 
operational risk and cost the taxpayer tens of millions of dollars in 
non-recurring engineering? Why not stay with a successful, proven, 
cost-effective design?
    Dr. McQueary. The Missile Defense Agency (MDA) is responsible for 
the initial development and any upgrades to the elements of the 
Ballistic Missile Defense System (BMDS). My job is to evaluate the 
capabilities of these elements after the MDA develops them. The MDA and 
the warfighters are in the best position to determine what improvements 
and upgrades are required or planned for the BMDS.
    I understand the MDA is undertaking a new design approach to the 
Divert and Attitude Control System (DACS) in the Standard Missile-3 
interceptor for three reasons. First, the new design is intended to 
improve the divert performance of the SM-3 missile against more complex 
threats of the future. Second, the redesigned DACS may save money in 
the long run if the design is more producible and reliable. Third, this 
redesign is intended to reduce the risk associated with development of 
the more capable SM-3 Block IIA interceptor.
    Mr. Reyes. Secretary Young, General Obering, General Campbell, and 
Dr. McQueary, the Standard Missile-3 has been successfully demonstrated 
in six flight tests last year and in the successful real-world shoot 
down of an errant satellite earlier this year. It is clearly our most 
thoroughly tested and operationally ready missile defense interceptor. 
Given this tremendous track record, why would the missile defense 
agency plan to change the successful design of the Solid Divert 
Attitude Control System for block IB? Wouldn't this change invite 
operational risk and cost the taxpayer tens of millions of dollars in 
non-recurring engineering? Why not stay with a successful, proven, 
cost-effective design?
    General Obering. The Agency selected the Throttleable Divert and 
Attitude Control System (TDACS) as the baseline design for the SM-3 
Block IB based on technical and programmatic advantages. The Aegis BMD 
4.0.1 weapon system takes advantage of the SM-3 Block IB's more 
flexible TDACS engine. MDA and the Aegis BMD Directorate anticipate SM-
3 Block IB round cost savings over SM-3 Block IA rounds resulting from 
the more producible, modular TDACS design. Finally, lessons learned 
from the SM-3 Block IB TDACS development will serve as a risk reduction 
effort for the SM-3 Block IIA Kinetic Warhead. To revert to a Solid 
Divert Attitude Control System (SDACS) configuration in the Block IB KW 
would require additional non-recurring engineering and a minimum 18-
month delay in the Block IB fielding schedule.
    Mr. Reyes. Secretary Young, General Obering, General Campbell, and 
Dr. McQueary, the Standard Missile-3 has been successfully demonstrated 
in six flight tests last year and in the successful real-world shoot 
down of an errant satellite earlier this year. It is clearly our most 
thoroughly tested and operationally ready missile defense interceptor. 
Given this tremendous track record, why would the missile defense 
agency plan to change the successful design of the Solid Divert 
Attitude Control System for block IB? Wouldn't this change invite 
operational risk and cost the taxpayer tens of millions of dollars in 
non-recurring engineering? Why not stay with a successful, proven, 
cost-effective design?
    General Campbell. In my discussions with the Standard Missile (SM)-
3 developer, the Missile Defense Agency (MDA), it is my understanding 
that the Solid Divert and Attitude Control System (SDACS) is an 
essential element of the SM-3 Block IA. However, per the developer, the 
SDACS is difficult to produce. As the operator, we have been informed 
by MDA that the Throttleable Divert and Attitude Control System 
(TDACS), which is used in the SM-3 Block IB, provides advantages over 
the SDACS. MDA also informs us that there are performance advantages 
and no operational risk associated with the use of TDACS. Finally, the 
developer has stated that conversion back to the SDACS would slow the 
fielding schedule and result in additional costs for the SM-3 Block IB.

                                  <all>

</pre></body></html>
